<html>
<title> - SECURING U.S. SURFACE TRANSPORTATION FROM CYBER ATTACKS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]







        SECURING U.S. SURFACE TRANSPORTATION FROM CYBER ATTACKS

=======================================================================

                             JOINT HEARING

                               before the

          SUBCOMMITTEE ON TRANSPORTATION AND MARITIME SECURITY

                                and the

                     SUBCOMMITTEE ON CYBERSECURITY,
                       INFRASTRUCTURE PROTECTION,
                             AND INNOVATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2019

                               __________

                            Serial No. 116-2

                               __________

       Printed for the use of the Committee on Homeland Security
                                     





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

       Available via the World Wide Web: http://www.govinfo.gov/

                               __________

		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
35-378 PDF                WASHINGTON : 2019                 

























                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON TRANSPORTATION AND MARITIME SECURITY

                  J. Luis Correa, California, Chairman
Emanuel Cleaver, Missouri            Debbie Lesko, Arizona, Ranking 
Dina Titus, Nevada                       Member
Bonnie Watson Coleman, New Jersey    John Katko, New York
Nanette Diaz Barragan, California    John Ratcliffe, Texas
Val Butler Deming, Florida           Mark Green, Tennessee
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
               Alex Marston, Subcommittee Staff Director
            Kyle Klein, Minority Subcommittee Staff Director
                                 ------                                

     SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND 
                               INNOVATION

                Cedric L. Richmond, Louisiana, Chairman
Sheila Jackson Lee, Texas            John Katko, New York, Ranking 
James R. Langevin, Rhode Island          Member
Kathleen M. Rice, New York           John Ratcliffe, Texas
Lauren Underwood, Illinois           Mark Walker, North Carolina
Elissa Slotkin, Michigan             Van Taylor, Texas
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
               Moira Bergin, Subcommittee Staff Director
           Sarah Moxley, Minority Subcommittee Staff Director 
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Chairman, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Debbie Lesko, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Lousiana, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................    11

                               WITNESSES
                                Panel I

Mr. Robert Kolasky, Director, National Risk Management Center, 
  Cybersecurity and Infrastructure Security Agency, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Ms. Sonya T. Proctor, Director, Surface Division, Office of the 
  Security Policy and Industry Engagement, Transportation 
  Security Administration:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20

                                Panel II

Mr. James A. Lewis, Senior Vice President, Center for Strategic 
  and International Studies:
  Oral Statement.................................................    38
  Prepared Statement.............................................    39
Ms. Rebecca Gagliostro, Director, Security, Reliability, and 
  Resilience, Interstate Natural Gas Association of America:
  Oral Statement.................................................    42
  Prepared Statement.............................................    44
Mr. Erik Robert Olson, Vice President, Rail Security Alliance:
  Oral Statement.................................................    46
  Prepared Statement.............................................    49
Mr. John Hultquist, Director of Intelligence Analysis, FireEye:
  Oral Statement.................................................    53
  Prepared Statement.............................................    54

 
        SECURING U.S. SURFACE TRANSPORTATION FROM CYBER ATTACKS

                              ----------                              


                       Tuesday, February 26, 2019

             U.S. House of Representatives,
       Subcommittee on Transportation and Maritime 
                                  Security, and the
  Subcommittee on Cybersecurity, Infrastructure Protection 
                                            and Innovation,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:03 a.m., 
in room 310, Cannon House Office Building, Hon. J. Luis Correa 
[Chairman of the Subcommittee on Transportation and Maritime 
Security] presiding.
    Present: Representatives Correa, Richmond, Cleaver, Jackson 
Lee, Langevin, Watson Coleman, Rice, Barragan, Underwood, 
Slotkin, Lesko, Walker, and Taylor.
    Also present: Representative Thompson.
    [Editor's Note.--Due to technical difficulties, audible 
portions of this transcript were not recorded and those 
instances have been marked accordingly.]
    Mr. Correa. Good morning everyone. Seeing the time of 10:05 
having arrived, I would like to gavel down and chair--and call 
the Subcommittees on Transportation and Maritime Security, and 
Cybersecurity, Infrastructure Protection, and Innovation, to 
order.
    Today's hearing marks the first hearing of this Congress 
for the Subcommittee on Transportation and Maritime Security. I 
am excited to be chairing this subcommittee in this Congress 
and to be joined by our Ranking Member, Congresswoman Lesko 
from Arizona; I understand she is getting snow in Arizona, that 
is----
    Mrs. Lesko. Right, that is--we were. It was crazy----
    Mr. Correa. You were?
    Mrs. Lesko. In Phoenix.
    Mr. Correa. Save the water.
    We have a great panel of distinguished Members on both 
sides of the aisle and I look forward to working with all of 
you to tackle the security challenges facing the transportation 
and maritime sectors.
    I am glad to hold our first hearing, jointly with the 
Cybersecurity Subcommittee, and its leaders, Chairman Richmond, 
and Ranking Member Katko, who, Mr. Katko, unfortunately is not 
able to join us today.
    I am also happy to welcome our two panels today of 
witnesses and I look forward to your testimony.
    We are here today to discuss a very important topic: 
Cybersecurity in our Nation's mass transit, rail, pipeline, and 
other surface transportation systems. Cyber threats are a 
growing concern for security experts across many sectors and 
the surface transportation sector is no different. Millions of 
Americans, we rely on surface transportation every day and an 
attack against a large subway system or pipeline could have 
hugely negative effects on all of us.
    Government and industry have both struggled to address 
cyber threats which have evolved quickly and have become more 
and more complex and I believe DHS is well-positioned to lead 
cybersecurity in the efforts across critical infrastructure 
sectors including the surface transportation sector.
    Last year, Congress established a Cybersecurity 
Infrastructure and Security Agency, or CISA, making clear its 
status as the preeminent Cybersecurity Agency within the 
Federal Government. CISA works closely with TSA which is 
responsible for securing all modes of transportation. In 
December 2018 working with CISA, TSA released a Cybersecurity 
Roadmap that sets priorities for securing transportation from 
cyber threats.
    The Roadmap is an important first step in the right 
direction, but it has to be followed by concrete action. In 
coordination with CISA, TSA must ensure owners and operators 
have access to the resources, intelligence, guidelines, and 
assessments needed to ensure the cybersecurity of their systems 
is as good as it can get.
    Government and industry stakeholders together must also 
address supply chain security concerns. We must make sure that 
surface transportation systems are not made vulnerable to cyber 
espionage due to unchecked foreign manufacturing of subways 
[inaudible] some have questioned whether DHS has paid enough 
attention to Pipeline security and have raised the idea of 
moving the responsibility from securing pipelines to another 
department and Ms. Proctor I do hope you address that issue 
during your comments [inaudible] because it would go against 
the reasons Congress established DHS, TSA, and CISA.
    Only DHS has the scope of authorities and access to 
intelligence needed to address cyber threats across critical 
infrastructure sectors. DHS has made significant progress in 
securing pipelines, including recent updates of TSA's Pipeline 
Security Guidelines and it should be allowed to build upon 
these on-going efforts.
    This hearing provides a great opportunity to discuss the 
work of both Government and the private sector to ensure all 
modes of transportation are secure from cyber threats and I 
look forward to a very productive conversation.
    [The statement of Chairman Correa follows:]
                  Statement of Chairman J. Luis Correa
                           February 26, 2019
    We have a great panel of distinguished Members on both sides of the 
aisle, and I look forward to working with you all to tackle the 
security challenges facing the transportation and maritime sectors. I 
am glad to hold our first hearing jointly with the Cybersecurity 
Subcommittee and its leaders, Chairman Richmond and Ranking Member 
Katko. I am also happy to welcome our two panels of witnesses today. We 
look forward to your testimony.
    We are here today to discuss an important topic: The cybersecurity 
of our Nation's mass transit, rail, pipeline, and other surface 
transportation systems. Cyber threats are a growing concern for 
security experts across many sectors--and the surface transportation 
sector is no different. Millions of Americans rely on surface 
transportation every day for critical services, and an attack against a 
large subway system or pipeline could have a hugely negative impact.
    Government and industry have both struggled to address cyber 
threats, which are evolving quickly and becoming more complex. However, 
I believe DHS is well-positioned to lead cybersecurity efforts across 
critical infrastructure sectors, including the surface transportation 
sector.
    Last year, Congress established the Cybersecurity and 
Infrastructure Security Agency, or CISA, making clear its status as the 
preeminent cybersecurity agency within the Federal Government. To 
secure surface transportation from cyber attacks, CISA works closely 
with TSA, which is responsible for securing all modes of 
transportation.
    In December 2018, working with CISA, TSA released a Cybersecurity 
Roadmap, which sets priorities for securing transportation from cyber 
threats. The publication of this roadmap is an important step in 
addressing the cybersecurity of transportation, but it must be followed 
by concrete action.
    In the surface mode, TSA works collaboratively with the system 
owners and operators who provide front-line security at the local 
level. In coordination with CISA, TSA must ensure owners and operators 
have access to the resources, intelligence, guidelines, and assessments 
needed to ensure the cybersecurity of their systems.
    Government and industry stakeholders together must also address 
supply chain security concerns. We must make sure that surface 
transportation systems are not made vulnerable to cyber espionage due 
to unchecked foreign manufacturing of subway cars or other 
infrastructure.
    Finally, some have questioned whether DHS has paid enough attention 
to pipeline security and have raised the idea of moving responsibility 
for securing pipelines to another department. Doing so would be 
foolhardy and go against the reasons Congress established DHS, TSA, and 
CISA. Only DHS has the scope of authorities and access to intelligence 
needed to address cyber threats across critical infrastructure sectors.
    For example, only TSA has authority to issue Security Directives to 
require immediate implementation of security measures across or within 
modes of transportation in the face of an imminent threat or on-going 
attack.
    DHS has made significant progress in securing pipelines, including 
recent updates to TSA's Pipeline Security Guidelines, and it should be 
allowed to build upon its on-going efforts.
    This hearing provides a great opportunity to discuss the work of 
both Government and private industry to secure all modes of 
transportation from cyber threats, and I look forward to a productive 
conversation.

    Mr. Correa. Now I would like to recognize the Ranking 
Member of the subcommittee, the gentlewoman from Arizona, Mrs. 
Lesko, for an opening statement.
    Mrs. Lesko. Thank you, Mr. Chairman.
    Thank you to all of you that are here today including the 
people coming as our testifiers.
    First, I would like to ask people to keep Representative 
Katko, in your prayers because his father passed away and that 
is why he is not here today and so Mr. Chairman, I do ask for 
unanimous consent for Representative Katko's statement to be 
added to the record.
    Mr. Correa. Without objection.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
    Thank you, Mr. Chairman, and thank you for holding a hearing on 
this important issue.
    I am pleased that my first subcommittee hearing as Ranking Member 
of the Cybersecurity, Infrastructure Protection, and Innovation 
subcommittee is a joint hearing with the subcommittee I was honored to 
chair for 4 years.
    Our world is increasingly connected. Our phones, computers, cars, 
and televisions are only some of the things we use every day that are 
vulnerable to a cyber attack that causes disruptions.
    But what about those objects that affect our everyday life, that we 
either don't see or don't consider them to be vulnerable to cyber 
attacks like pipelines that undergird this country's energy sector or 
the metro cars we rely on to get us around?
    A cyber attack on the industrial control systems for our 
operational technology could wreak havoc across our Nation. It is an 
attack vector that we must take seriously and work to secure these 
technologies from motivated attackers.
    Fortunately, we have two partners who are well-equipped to address 
these vulnerabilities. TSA brings the expertise about our pipelines and 
mass transit systems while CISA is the cyber expert. I want to 
reiterate what my colleague, Ranking Member Lesko said in her opening 
statement--TSA and CISA are stronger because of their ability to work 
together. Their value is made greater by the wealth of resources within 
DHS to help surface transportation operators be prepared for the cyber 
threats.
    As a committee, we must be vigilant in making sure the various 
sectors of our economy are protecting their assets from physical and 
cyber harm. We cannot allow for those technologies that are 
foundational to our livelihood be a tool for a bad actor to launch a 
cyber attack.
    Thank you to our witnesses for taking the time this morning to 
speak on this topic. I look forward to hearing from you.

    Mrs. Lesko. Thank you, Mr. Chairman, and thank you for 
holding a hearing today on this very important topic.
    TSA has security authorities over America's surface 
transportation modes including 6,700 mass transit systems, 
passenger and freight rail as well as motor coach in both rural 
and urban communities. In addition, pipelines are considered a 
mode of surface transportation for natural gas and hazardous 
materials. Across the United States, including in my home State 
of Arizona, TSA is responsible for securing more than 2\1/2\ 
million miles of pipelines carrying natural gas and other 
materials that quite literally fuel our economy.
    While much progress has been made to provide better 
physical security for surface transportation, there remains 
growing concerns surrounding the cybersecurity of our Nation's 
surface transportation assets. As cyber actors become more 
sophisticated and surface transportation systems become 
increasingly reliant on computer systems, the vulnerability of 
this critical sector grows along with the risks posed by 
nefarious actors who may seek to exploit cybersecurity 
vulnerabilities to cause service disruptions or conduct 
economic espionage.
    In general, surface transportation systems utilize a number 
of interconnected information systems that, when exposed, 
present cybersecurity vulnerabilities. According to the 
American Public Transit Association, cyber attacks against 
surface transportation operators can destroy an agency's 
physical systems, render them inoperable, hand over control of 
systems to an outside entity, or threaten the privacy of 
individuals or customers.
    In the 115th Congress, the Republican Majority worked in a 
bipartisan manner to enact the TSA Modernization Act, the 
first-ever authorization of TSA since the agency was created in 
2001. We also enacted the Cybersecurity and Infrastructure 
Security Agency Act of 2018 which created CISA in order to 
reform critical security programs within the Department and 
better equip DHS to support the cybersecurity of transportation 
systems.
    Additionally, TSA Administrator Pekoske has worked to 
restructure the agency to reflect evolving mission needs. It is 
important to note that while threats against our transportation 
sector may be evolving, they are not diminishing. Legitimate 
concerns have been raised as to the ability of TSA to provide 
necessary security for surface transportation assets and 
particularly pipelines.
    While I believe TSA is best positioned as the Government's 
authority on transportation security, it is incumbent upon the 
agency to demonstrate its commitment to securing all modes of 
transportation. The Department of Homeland Security and its 
components must work to mitigate growing cybersecurity threats 
and work hand-in-hand with industry partners to promote a 
culture of security and keep America's economy fueled and 
moving with the public's confidence.
    I do look forward to hearing the testimony before us today 
and thank you for being here.
    I yield back, Mr. Chairman.
    [The statement of Ranking Member Lesko follows:]
                Statement of Ranking Member Debbie Lesko
                           February 26, 2019
    TSA has security authorities over America's surface transportation 
modes, including 6,700 mass transit systems, passenger and freight 
rail, as well as motorcoach, in both rural and urban communities. In 
addition, pipelines are considered a mode of surface transportation for 
natural gas and hazardous materials. Across the United States, 
including in my home State of Arizona, TSA is responsible for securing 
more than 2.5 million miles of pipelines carrying natural gas and other 
materials that quite literally fuel our economy.
    While much progress has been made to provide better physical 
security for surface transportation there remains growing concern 
surrounding the cybersecurity of our Nation's surface transportation 
assets.
    As cyber actors become more sophisticated and surface 
transportation systems become increasingly reliant on computer systems, 
the vulnerability of this critical sector grows, along with the risk 
posed by nefarious actors who may seek to exploit cybersecurity 
vulnerabilities to cause service disruptions or conduct economic 
espionage.
    In general, surface transportation systems utilize a number of 
interconnected information systems that, when exposed, present 
cybersecurity vulnerabilities. According to the American Public Transit 
Association, cyber attacks against surface transportation operators can 
destroy an agency's physical systems, render them inoperable, hand over 
control of systems to an outside entity or threaten the privacy of 
individuals or customers.
    In the 115th Congress, the Republican Majority worked in a 
bipartisan manner to enact the TSA Modernization Act, the first-ever 
authorization of TSA since the agency was created in 2001. We also 
enacted the Cybersecurity and Infrastructure Security Agency Act of 
2018, which created CISA in order to reform critical security programs 
within the Department and better equip DHS to support the cybersecurity 
of transportation systems. Additionally, TSA Administrator Pekoske has 
worked to restructure the agency to reflect evolving mission needs.
    It is important to note that while threats against our 
transportation sector may be evolving, they are not diminishing. 
Legitimate concerns have been raised as to the ability of TSA to 
provide necessary security for surface transportation assets, in 
particular pipelines. While I believe TSA is best positioned as the 
Government's authority on transportation security, it is incumbent upon 
the agency to demonstrate its commitment to securing all modes of 
transportation. The Department of Homeland Security and its components 
must work to mitigate growing cybersecurity threats and work hand-in-
hand with industry partners to promote a culture of security and keep 
America's economy fueled and moving with the public's confidence.

    Mr. Correa. Thank you very much.
    I will--I would like to recognize the Chair of the 
Committee on Homeland Security, Mr. Bennie Thompson, for some 
opening remarks, sir.
    Mr. Thompson. Thank you very much, Chairman Correa; Ranking 
Member Lesko, on your maiden voyage as Ranking Member, welcome.
    I would also like to express my sympathies to Ranking 
Member Katko on the loss of his father.
    But also, this hearing today is very important, the cyber 
threats facing the U.S. surface transportation sector. Since 
the 9/11 attacks, the U.S. Government has focused on closing 
gaps in physical aviation security by Federalizing passenger 
and baggage screening, hardening cockpit doors, and deploying 
improved screening technologies and training.
    In September 2018 the subcommittees held a joint hearing 
highlighting the potential harm from important undisclosed 
vector cyber threats in aviation. Today we will provide the 
same attention to cybersecurity threats to the surface 
transportation sector.
    With TSA dedicating most of its resources to protecting 
aviation, the surface transportation sector including freight 
and passenger trains, commuter rails, mass transit, buses, and 
pipelines presents relatively a soft target for mass casualty 
attacks. We rely on these diverse assets not only for our 
shipping and other transports of natural gas, and a host of 
other activities essential to the health of our economy and 
National security.
    In recent years, surface transportation systems overseas 
have been hit by terrorist attacks. On our own shores, New York 
City's subway was a target of a failed terrorist plot in 
December 2017. Given the level of risk to surface 
transportation, I am concerned that we have not sufficiently 
protected this sector against cyber threats.
    To date no cyber attacks have disrupted the actual 
operations of surface transportation systems but attacks have 
resulted in financial disruption and affected public confidence 
in various modes of surface transportation. These small-scale 
attacks have shown that a relatively simple intrusion could up 
end surface transportation services causing significant harm 
and disruption.
    Last year Congress established Cybersecurity and 
Infrastructure Security Agency or CISA as the operational 
agency within the Federal Government [inaudible] on 
cybersecurity information sharing. CISA will continue to play a 
critical role in providing cybersecurity resources within DHS 
including to TSA and to industries, to combat cyber threats to 
critical infrastructure. TSA for its part maintains 
responsibility for the security of all modes of transportation. 
Working together within DHS, CISA and TSA are uniquely 
positioned to address cyber threats in transportation.
    I would note that DHS's authorities and capabilities across 
critical infrastructures' sectors in all modes of 
transportation makes it better positioned to secure pipelines 
than the Department of Energy, despite some suggestions to the 
contrary.
    In December 2018, in coordination with CISA, TSA released 
its first-ever Cybersecurity Roadmap, providing a vision for 
the future of cybersecurity across all modes of transportation, 
while DHS is headed in the right direction much work remains. 
In many cases surface transportation sector-owners and -
operators struggle with the same cyber challenges that plague 
other industries: A National shortage of skilled cybersecurity 
personnel; a work force with minimal cybersecurity training and 
awareness; and resource constraints across the board.
    Finally, at a hearing on surface transportation security, I 
would be remiss if I did not point out that TSA remains non-
compliant with requirements to publish surface transportation 
security regulations which were enacted over a decade ago in 
the Implementation Recommendations of the 9/11 Commission Act 
of 2007.
    I would like to at some point, Mr. Chairman, hope to get a 
response to why we have not had that take place.
    With that I yield back.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                           February 26, 2019
    Since the 9/11 attacks, the U.S. Government has focused on closing 
gaps in physical aviation security by Federalizing passenger and 
baggage screening, hardening cockpit doors, and deploying improved 
screening technologies and training.
    In September 2018, the subcommittees held a joint hearing 
highlighting the potential harm from an important, underdiscussed 
vector: Cyber threats to aviation. Today, we will provide the same 
attention to cybersecurity threats to the surface transportation 
sector.
    With TSA dedicating most of its resources to protecting aviation, 
the surface transportation sector--including freight and passenger 
trains, commuter rail, mass transit, buses, and pipelines--presents a 
relatively soft target for mass-casualty attacks. We rely on these 
diverse assets not only support for our personal and business travel, 
but also commercial shipping, the transport of natural gas, and a host 
of other activities essential to the health of our economy and National 
security.
    In recent years, surface transportation systems overseas have been 
hit by terrorist attacks. On our own shores, New York City's subway was 
the target of a failed terrorist plot in December 2017. Given the level 
of risk to surface transportation, I am concerned that we have not 
sufficiently protected this sector against cyber threats.
    To date, no cyber attacks have disrupted the actual operations of 
surface transportation systems, but attacks have resulted in financial 
disruption and affected public confidence in various modes of surface 
transportation. These small-scale attacks have shown that a relatively 
simple intrusion could upend surface transportation services, causing 
significant harm and disruption.
    Last year, Congress established Cybersecurity and Infrastructure 
Security Agency, or CISA, as the operational agency within the Federal 
Government charged with serving as the primary civilian interface for 
cybersecurity information sharing. CISA will continue to play a 
critical role in providing cybersecurity resources within DHS, 
including to TSA, and to industry to combat cyber threats to critical 
infrastructure.
    TSA, for its part, maintains responsibility for the security of all 
modes of transportation.
    Working together within DHS, CISA, and TSA are uniquely positioned 
to address cyber threats to transportation.
    I would note that DHS's authorities and capabilities across all 
critical infrastructure sectors and all modes of transportation makes 
it better positioned to secure pipelines than the Department of Energy, 
despite some suggestions to the contrary.
    In December 2018, in coordination with CISA, TSA released its 
first-ever Cybersecurity Roadmap, providing a vision for the future of 
cybersecurity across all modes of transportation.
    While DHS is headed in the right direction, much work remains. In 
many cases, surface transportation sector owners and operators struggle 
with the same cyber challenges that plague other industries: A National 
shortage of skilled cybersecurity personnel, a workforce with minimal 
cybersecurity training and awareness, and resource constraints across 
the board.
    Owners and operators must also address supply chain concerns, 
including those posed by the emergence of a Chinese state-owned 
enterprise manufacturing subway cars for U.S. mass transit systems. 
Government and industry must work together to ensure that cyber threats 
and vulnerabilities are fully understood and appropriately addressed.
    Finally, at a hearing on surface transportation security, I would 
be remiss if I did not point out that TSA remains non-compliant with 
requirements to publish surface transportation security regulations, 
which were enacted over a decade ago in the Implementing 
Recommendations of the 9/11 Commission Act of 2007.
    The rules required under the law would help TSA to better assess 
and address vulnerabilities within the surface transportation sector, 
including cybersecurity vulnerabilities.
    I look forward to hearing from this panel of witnesses today, and I 
hope they will give us a candid assessment of the cybersecurity posture 
of our surface transportation sector.

    Mr. Correa. Thank you, Chairman Thompson, for those opening 
statements.
    Now I would like to recognize the co-Chair of this hearing 
today, Mr. Richmond, Chairman of the Cybersecurity, 
Infrastructure Protection, and Innovation Subcommittee for an 
opening statement. Welcome, sir.
    Mr. Richmond. Thank you, Mr. Chairman.
    I will recognize the Chairman of the whole--full committee, 
Mr. Bennie Thompson, from Mississippi.
    I will also join my colleagues in extending my condolences 
to Congressman Katko. As a person who has lost two fathers, I 
understand what he is going through and we wish him the best.
    I want to start by congratulating Congressman Correa, on 
becoming Chairman of the Transportation and Maritime Security 
Subcommittee. I look forward to working with you to improve the 
cybersecurity posture of our transportation infrastructure.
    Last fall our subcommittees held a joint hearing to assess 
cybersecurity risks to aviation. We learned that cyber threats 
to aviation are persistent, that cyber tools can be used to 
engage in cyber espionage or undermine confidence in the 
aviation industry and that the safety of air travelers requires 
us to stay a step ahead of bad actors.
    In short, we learned that cybersecurity posture of the 
aviation sector is a National security, economic security, and 
public safety imperative. The same can be said for the 
cybersecurity posture of our surface transportation systems. 
Surface transportation includes roads, rail, maritime 
facilities, and pipelines and my district is rich in all of 
them so I am glad that we are beginning the 116th Congress with 
this hearing.
    Compared to the aviation sector, surface transportation 
receives relatively little in Federal funding to support 
security. Outside of the Transit Security Grant Program which 
is awarded to public transportation entities and primarily used 
to secure against physical threats, surface transportation 
owners and operators foot the bill for security themselves.
    But the Federal Government is not off the hook, it plays a 
critical role in providing the situational awareness, security 
assessments, and guidance to stakeholders that inform surface 
transportation security investments.
    In a decade-and-a-half since it was established, the 
Department of Homeland Security has matured its ability to 
convene stakeholders, leverage its cross-component expertise, 
and share actionable intelligence analysis and guidance to help 
address pressing National security challenges.
    Whether or not the Federal Government can effectively 
partner with stakeholders to secure surface transportation 
modes from cyber attacks, rests on DHS's ability to continue to 
perform and build on these capabilities. Approximately 125,000 
miles of pipelines valued at 1.9 billion move oil and gas 
through Louisiana every day. The industry employs over 2,500 
people in the State; toward that end I was pleased that the 
Pipeline Cybersecurity Initiative was one of the first 
priorities announced by the new National Risk Management Center 
last year and updated Pipeline Security Guidelines were finally 
released last March.
    I am encouraged that the Department is redoubling its 
efforts to improve the cybersecurity of pipelines by enhancing 
the in-house collaboration between CISA and TSA, and engaging 
with the private sector.
    I believe the Pipeline Security Initiative has the 
potential to provide a more comprehensive understanding of the 
unique cybersecurity risks to pipelines, particularly as the 
sector relies more on the industrial internet of things; that 
knowledge will empower stakeholders to address cybersecurity 
risks more strategically. Although the Initiative was first 
announced as one of the NRMC's initial sprint, I hope that it 
will evolve into a more permanent collaboration.
    I am concerned however that the updated Pipeline Security 
Guidelines do not address supply chain risk management; 
moreover I would be interested to know how TSA is implementing 
the 10 recommendations the Government Accountability Office 
made in December related to its management of Pipeline Security 
Program. The safety of my community and the economy of my 
district depends on DHS getting this mission right.
    I would be remiss if I did not also raise my concerns about 
the cybersecurity posture of both passenger and freight rail, 
particularly as passenger rail cars incorporate automatic train 
control, network and train-line control and monitoring and 
diagnostics, among other technologies.
    Last month I read a troubling report of a Chinese rail 
company significantly under-bidding competitors to win transit 
rail contracts in four major markets. I am aware of China's 
political and economic ambitions. The intelligence community 
and Congress have been clear in cautioning against the use of 
Chinese telecommunications products.
    But it is unclear to me whether the Federal Government has 
assessed what, if any additional cybersecurity threat is posed 
by contracting with a Chinese company to purchase railcars with 
advanced technologies. It is also unclear whether the Federal 
Government is providing any guidance to local transit 
authorities to ensure cybersecurity is incorporated into their 
procurement process.
    I look forward to discussing these issues with the 
witnesses today and I yield back the balance of my time.
    [The prepared statement of Chairman Richmond follows:]
                 Statement of Chairman Cedric Richmond
                           February 26, 2019
    Last fall, our subcommittees held a joint hearing to assess 
cybersecurity risks to aviation. We learned that cyber threats to 
aviation are persistent, that cyber tools can be used to engage in 
cyber espionage or undermine confidence in the aviation industry, and 
that the safety of air travelers requires us to stay a step ahead of 
bad actors.
    In short, we learned that the cybersecurity posture of the aviation 
sector is a National security, economic security, and public safety 
imperative. The same can be said for the cybersecurity posture of our 
surface transportation systems.
    Surface transportation includes roads, rail, maritime facilities, 
and pipelines, and my district is rich in all of them, so I'm glad we 
are beginning the 116th Congress with this hearing. Compared to the 
aviation sector, surface transportation receives relatively little in 
Federal funding to support security.
    Outside of the Transit Security Grant Program--which is awarded to 
public transportation entities and primarily used to secure against 
physical threats--surface transportation owners and operators foot the 
bill for security themselves.
    But the Federal Government is not off the hook. It plays a critical 
role in providing the situational awareness, security assessments, and 
guidance to stakeholders that inform surface transportation security 
investments.
    In the decade-and-a-half since it was established, the Department 
of Homeland Security has matured its ability to convene stakeholders, 
leverage its cross-component expertise, and share actionable 
intelligence analysis and guidance to help address pressing National 
security challenges.
    Whether or not the Federal Government can effectively partner with 
stakeholders to secure surface transportation modes from cyber attacks 
rests on DHS's ability to continue to perform and build on these 
capabilities.
    Approximately 125,000 miles of pipelines--valued at $1.9 billion--
move oil and gas through Louisiana every day. The industry employs over 
2,500 people in the State. Toward that end, I was pleased that the 
Pipeline Cybersecurity Initiative was one of the first priorities 
announced by the new National Risk Management Center last year and the 
updated Pipeline Security Guidelines were finally released last March. 
I am encouraged that the Department is redoubling its efforts to 
improve the cybersecurity of pipelines by enhancing the in-house 
collaboration between CISA and TSA and engaging with the private 
sector.
    I believe the Pipeline Cybersecurity Initiative has the potential 
to provide a more comprehensive understanding of the unique 
cybersecurity risks to pipelines, particularly as the sector relies 
more on the industrial internet of things. That knowledge will empower 
stakeholders to address cybersecurity risks more strategically. 
Although the Initiative was first announced as one of the NRMC's 
initial ``sprint,'' I hope that it will evolve into a more permanent 
collaboration. I am concerned, however, that the updated Pipeline 
Security Guidelines do not address supply chain risk management.
    Moreover, I will be interested to know how TSA is implementing the 
10 recommendations the Government Accountability Office made in 
December related to its management of the Pipeline Security Program. 
The safety of my community and the economy of my district depend on DHS 
getting this mission right.
    I would be remiss if I did not also raise my concerns about the 
cybersecurity posture of both passenger and freight rail, particularly 
as passenger rail cars incorporate automatic train control, network and 
trainline control, and monitoring and diagnostics, among other 
technologies. Last month, I read troubling reports of a Chinese rail 
company significantly underbidding competitors to win transit rail 
contracts in four major markets.
    I am aware of China's political and economic ambitions. The 
intelligence community and Congress have been clear in cautioning 
against the use of Chinese telecommunications products.
    But it is unclear to me whether the Federal Government has assessed 
what, if any, additional cybersecurity threat is posed by contracting 
with a Chinese company to purchase rail cars with advanced 
technologies.
    It is also unclear whether the Federal Government is providing any 
guidance to local transit authorities to ensure cybersecurity is 
incorporated into their procurement processes.
    I look forward to discussing these issues with the witnesses and I 
yield back the balance of my time.

    Mr. Correa. Thank you, Chairman Richmond. I also would like 
to congratulate you on your Chairmanship; I look forward to 
working with you as well.
    Other Members of the subcommittee are reminded that under 
the committee rules, opening statements may be submitted for 
the record.
    [The statement of Honorable Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
    Good morning Chairman Correa and Chairman Richmond, Ranking Member 
Lesko and Ranking Member Katko, for convening today's joint hearing on 
``Securing U.S. Surface Transportation From Cyber Attacks.''
    At the outset, let me congratulate Chairman Correa and Chairman 
Richmond on your elections to lead the Homeland Security Subcommittees 
on Transportation and Maritime Security and Cybersecurity, 
Infrastructure Protection and Innovation Committee, respectively.
    I look forward to continuing to work with each of you along with 
returning Members of the committee and welcome an outstanding group of 
new Members on both sides of the aisle, whom I trust will find the 
important work advanced by this committee as fulfilling and rewarding 
as I have since joining it as its inception.
    Today's witnesses:
Panel I
  <bullet> Mr. Bob Kolasky, director, National Risk Management Center, 
        Cybersecurity and Infrastructure Security Agency, U.S. 
        Department of Homeland Security;
  <bullet> Sonya T. Proctor, director, Surface Division, Office of 
        Security Policy and Industry Engagement, Transportation 
        Security Administration.
Panel II
  <bullet> Ms. Rebecca Gagliostro, director, security, reliability, and 
        resilience, Interstate Natural Gas Association of America;
  <bullet> James A. Lewis, senior vice president, Center for Strategic 
        and International Studies;
  <bullet> Erik Robert Olson, vice president, Rail Security Alliance;
  <bullet> Mr. John Hultquist, director of intelligence analysis, 
        FireEye (Minority witness).
    I thank each of today's witnesses for bringing their expert view on 
the state of cybersecurity and surface transportation in the United 
States.
    I note that several of today's witnesses warn about China and the 
security of transportation systems in the United States.
    Their concern is shared by the Department of Defense in its annual 
report to Congress: Military and Security Developments Involving the 
People's Republic of China 2018.
    The report states that China obtains foreign technology through 
imports, foreign direct investment, industrial and cyber espionage, and 
establishment of foreign research and development (R&D) centers.
    In addition, an assessment of Cyber Operations by DoD said that 
People's Liberation Army researchers believe that building strong cyber 
capabilities is necessary to protect Chinese networks and advocate 
seizing ``cyber space superiority'' by using offensive cyber operations 
to deter or degrade an adversary's ability to conduct military 
operations against China.
    These findings by the DoD give our committee ample reason to 
consider the cybersecurity implications of China's activity in the 
transportation sector.
    The Transportation Security Administration (TSA) is responsible for 
both the physical security and cybersecurity of all modes of 
transportation, including pipelines.
    In November 2018, TSA released the ``TSA Cybersecurity Roadmap for 
2018,'' its first-ever cybersecurity roadmap.
    The Roadmap will guide TSA's oversight of the cybersecurity of the 
transportation systems sector over the next 5 years by focusing on four 
priority areas, which include risk identification, vulnerability 
reduction, consequence mitigation, and enabling cybersecurity outcomes.
    In addition, the Roadmap emphasizes TSA's commitment to recruiting, 
retaining, and training technical and cyber talent to improve its 
ability to engage with stakeholders on cybersecurity and information 
technology issues.
    Finally, the Roadmap highlights TSA's collaboration with the 
Cybersecurity and Infrastructure Security Agency (CISA), which is the 
operational component within DHS charged with serving as the primary 
Federal civilian interface for cybersecurity information sharing.
    We know the threats that computing devices and systems face, which 
are almost too numerous to count:
  <bullet> Bot-nets;
  <bullet> Ransomware;
  <bullet> Zero Day Events;
  <bullet> Malware;
  <bullet> Denial-of-Service Attacks;
  <bullet> Distributed Denial-of-Service Attacks;
  <bullet> Pharming;
  <bullet> Phishing;
  <bullet> Data Theft;
  <bullet> Data Breaches;
  <bullet> SQL Injection;
  <bullet> Man-in-the-Middle Attack.
    The list goes on, but suffice to say that as hard as any one person 
in our Government is working to stop cyber attacks there are likely 
another thousand attempting to breach a system or device or technology 
used by a United States citizen.
    Vulnerabilities of computing systems are not limited to intentional 
attacks, but can include acts of nature, human error, or technology 
failing to perform as intended.
    I am particularly concerned about cybersecurity of transportation 
for pipelines, bridges, tolls, air traffic control systems, commercial 
aircraft, ports, and automobiles.
    Government agencies and political institutions around the world 
have acknowledged that air traffic management and control (ATM/ATC) 
vulnerabilities could be used to undermine National security.
    Any breach of the U.S. air traffic control system can lead to 
flight interruptions that may result in cancellations.
    The number, type, and severity of cyber threats experienced by 
ports, service providers, or port customers are unknown because victims 
generally prefer not to report incidents and to pay or absorb costs 
resulting from breaches or thefts.
    Another reason for underreporting is that companies and ports often 
are unaware that their cybersecurity has been breached.
    In January 2019, the American Association of Port Authorities 
(AAPA) identified nearly $4 billion in crucial port and supply chain 
security needs over the next 10 years.
    The AAPA says that funding is needed to ensure America's port 
facilities are properly equipped to address new and evolving security 
challenges.
    The report recommends refocusing the Federal Emergency Management 
Agency's Port Security Grant Program to better meet the security 
infrastructure needs of publicly-owned commercial seaports and related 
maritime operations.
    AAPA recommends funding an estimated $2.62 billion in maintenance 
and upgrades to port security equipment and systems, and another $1.27 
billion for investments to tackle cybersecurity, active shooter, drone 
mitigation, resiliency, and other evolving security threats.
    It is reported that the U.S. Government invests $100 million 
annually in the Port Security Grant Program.
    This grant program began after 9/11, and it is estimated that by 
the end of 2017, container volumes through U.S. ports have increased 71 
percent and total foreign trade tonnage had increased 37 percent, while 
cruise passenger traffic nearly doubled by the end of 2018.
    During this time, 85 percent of AAPA U.S. member ports report that 
they anticipate direct cyber or physical threats to their ports to 
increase over the next 10 years.
    The 2017 APM Maersk cyber attack illustrates how an incident can 
start outside the United States and have a cascading impact on ports 
and terminal operations across the globe.
    Further evidence on the cyber vulnerability of ports, comes from 
October 15, 2014, in a report by CyberKeel entitled, ``Maritime Cyber-
Risks,'' which focused on financial thefts; alteration of carrier 
information regarding cargo location; barcode scanners used as hacking 
devices (a variation of the light bulb vulnerability described above); 
targeting of shipbuilding and maritime operations; cyber-enabled large 
drug smuggling operations; compromising of Australian customs and 
border protection; spoofing a vessel Automated Identification System 
(AIS); drilling rig cyber attack; vessel navigation control hack; GPS 
jamming; vulnerabilities in the Electronic Chart Display and 
Information System; and a Danish Maritime Authority breach.
    In 2015, I hosted a briefing on ``Cyber Security Threat Posed by 
the Ability to Hack Automobiles,'' which provided information on the 
growing threat of remote attacks against moving vehicles and the 
privacy of consumer data captured by automotive systems.
    Finally, the use of untrustworthiness of transportation 
infrastructure can have significant impacts on our Nation's economy.
    An important part of cybersecurity is establishing and maintaining 
a cybersecurity culture both within the Federal Government and 
throughout the private sector.
    We must change the way we perceive and respond to cybersecurity 
vulnerabilities and threats.
    We must be steadfast in our resolve to protect the Nation's 
transportation system from cyber threats.
    I look forward to the testimony of today's witnesses.
    Thank you.

    Mr. Correa. With that being said I welcome the first panel 
of witnesses.
    Our first witness is Mr. Bob Kolasky, who serves as 
director of the National Risk Management Center at the 
Cybersecurity and Infrastructure Security Agency at the 
Department of Homeland Security. As director he oversees the 
Center's efforts to facilitate strategic cross-sector risk 
management approach to cyber and physical threats to our 
critical infrastructure.
    Next we will have Ms. Sonya Proctor, who serves as director 
of the Surface Division within the Office of Security Policy or 
OSP, at the Transportation Security Agency. Ms. Proctor's 
responsibilities include developing risk-based and effective 
security policy in collaboration with stakeholders in surface 
transportation modes.
    Without objection, the witnesses' full statements will be 
inserted into the record and I will ask each witness to 
summarize his or her statements in 5 minutes, beginning with 
Mr. Kolasky.
    Welcome, sir.

STATEMENT OF ROBERT KOLASKY, DIRECTOR, NATIONAL RISK MANAGEMENT 
CENTER, CYBERSECURITY AND INFRASTRUCTURE SECURITY AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Kolasky. Thank you, Chairman.
    Chairman Correa, Chairman Thompson, Chairman Richmond, 
Ranking Member Lesko, and Members of the subcommittee, good 
morning and thank you for the opportunity to testify regarding 
the Department's on-going and collaborative efforts to 
strengthen the cybersecurity of our Nation.
    Today, as the subject of the hearing, I will focus my 
remarks on surface transportation including pipelines, mass 
transit, freight, rail, and our highways.
    First however I do want to thank the committee for its 
leadership in establishing the Cybersecurity and Infrastructure 
Security Agency, CISA. By creating our new agency in law, 
Congress formally recognized DHS's role as the leader of the 
National effort to safeguard Federal networks and critical 
infrastructure from cyber and physical threats.
    CISA delivers organization-specific and cross-sector risk 
management support to enhance the resiliency of our Nation's 
critical infrastructure. We are the main Federal interface for 
sharing cyber-threat indicators. We provide a broad range of 
cybersecurity threat detector response and coordination 
capabilities to assist industry across all sectors, including 
surface transportation, for securing their operations. Our 
capabilities bring together the intelligence committee, law 
enforcement, international partners, and the private sector.
    As part of CISA, I serve as the director of the National 
Risk Management Center. The Center brings together industry and 
Government for collaborative planning, analysis, and 
prioritization in order to reduce risk to critical 
infrastructure. These efforts complement and support the day-
to-day operations across our agency and are intended to focus 
on the most significant risks facing the Nation's critical 
infrastructure. To that end cyber threats remain one of the 
most significant strategic risks for the United States.
    Critical infrastructure cyber incidents however are rarely 
sector-specific which means we can't afford to take a sector-
specific approach to risk management. Our adversaries target 
common vulnerabilities in systems across sectors. They target 
companies in one sector to launch attacks on a [inaudible] the 
growing interdependencies across sectors demand an integrated 
approach.
    An attack on the transportation sector has operational 
impact and transcends the operations across the transportation 
sector. That is one reason why we did establish the National 
Risk Management Center. Planning, operations, and information 
sharing to secure critical infrastructure must not be 
stovepiped; this is because of the global, borderless, 
interconnected nature of cyber space where strategic threats 
can manifest in the homeland without advance warning and speed 
of collaboration is essential.
    In the coming months the National Risk Management Center 
will finalize the identification of a set of National Critical 
Functions. National Critical Functions are defined as the 
functions of Government and the private sector, so vital to the 
United States that their disruption, corruption, or dysfunction 
could have a debilitating impact on National security, economic 
security, National public health, or safety, and we identified 
these in partnership with industry and our colleagues across 
the Government.
    Through this process we have already identified functions 
associated with surface transportation such as the movement of 
commodities through pipelines and the generation of electricity 
that need to be prioritized. Because of that last year as you 
all mentioned, we launched the Pipeline Security Initiative to 
build upon past work in the sector.
    This effort is a partnership between CISA, TSA, the 
Department of Energy, as well as industry. CISA is coordinating 
risk management planning and tasking its cybersecurity 
operations, provide technical capabilities in support of my 
colleague Sonya and her team as the sector-specific agency. 
TSA's relationship with the sector and understanding of 
pipeline operations is critical to the success of this 
initiative.
    The Pipeline Security Initiative is conducting 
cybersecurity assessments on pipelines to identify and mitigate 
vulnerabilities. The first comprehensive assessment was 
completed in December 2018 and we expect to do 9 more this 
year. These are some of the most comprehensive, in-depth, cyber 
assessments the U.S. Government has done on pipelines to date. 
Based on these assessments the NRMC will be conducting initial 
analysis of how best to reduce risk to the Nation's pipeline 
infrastructure, working with industry to prioritize mitigation 
activities.
    Another example of our work to support the transportation 
sector is industrial control security. Much of our Nation's 
surface transportation is dependent on industrial control 
systems to monitor, control, and safeguard operation. We at 
CISA have a long history of working to provide technical 
expertise and to share information with ICS vendors and we will 
continue to do that with a focus on surface transportation.
    The final area I want to talk about, the National Risk 
Management Center's efforts are our efforts around supply chain 
security. To address supply chain risks CISA has established an 
Information and Communications Technology Supply Chain Risk 
Management Task Force. This is a public-private partnership to 
facilitate mitigation of emerging supply chain threats.
    Work is on-going on 4 separate work streams intended to 
improve threat information, better understand priority Supply 
Chain risks, and incentivize and enhance Supply Chain Risk 
Management. This work will help transportation sectors as well 
as critical infrastructure and Federal networks.
    In closing, CISA will continue to be a partner to our 
Government and industry colleagues with the twin imperative of 
addressing the cyber threats we see today and shaping the risk 
environment of tomorrow. I am convinced that such an approach 
will leave us better prepared to address any challenges we face 
from our adversaries now and in the future.
    Once again thank you for the opportunity to appear before 
the subcommittee today. I look forward to your questions.
    [The prepared statement of Mr. Kolasky follows:]
                  Prepared Statement of Robert Kolasky
                           February 26, 2019
    Chairman Richmond, Chairman Correa, Ranking Member Katko, Ranking 
Member Lesko, and Members of the subcommittees, thank you for the 
opportunity to testify regarding the U.S. Department of Homeland 
Security's (DHS) on-going efforts to reduce and mitigate risks to our 
Nation's critical infrastructure. I have the privilege of serving as 
the director of the National Risk Management Center (NRMC) at the 
Cybersecurity and Infrastructure Security Agency (CISA). The NRMC 
operates as a planning, analysis, and collaboration center bringing 
together industry and multiple parts of Government to identify, 
analyze, prioritize, and reduce risks to critical infrastructure. The 
NRMC's efforts are centered on the ``secure tomorrow'' mantle of CISA's 
mission--complementing and drawing from the day-to-day information 
sharing, technical analysis, and operational assistance missions from 
elsewhere in the agency.
    My testimony today will focus on the cybersecurity of surface 
transportation systems, including pipelines, mass transit systems, 
freight rail systems, and highways. Both CISA and the Transportation 
Security Administration (TSA) play a critical role in accomplishing 
this mission. CISA is leading National efforts to defend the Nation's 
critical infrastructure today and secure tomorrow by partnering with 
industry and Government to reduce risk from cyber, physical, and hybrid 
threats. Thanks to Congress's leadership and passage of the 
Cybersecurity and Infrastructure Security Agency Act of 2018 (Pub. L. 
115-278), we are now even better poised to further the maturation of 
the organization to best reflect our essential mission and role in 
securing cyber space. CISA's efforts to secure surface transportation 
are carried out in close coordination with the TSA and Department of 
Transportation, the Sector-Specific Agencies (SSA) for the surface 
transportation portion of the Transportation Systems Sector.
                             cyber threats
    Cyber threats remain one of the most significant strategic risks 
for the United States, threatening our National security, economic 
prosperity, and public health and safety. The past several years have 
marked a growing awareness of the cyber domain in the public 
consciousness. We have seen advanced persistent threat actors, 
including hackers, cyber criminals, and nation-states, increase the 
frequency and sophistication of their attacks. Our adversaries have 
been developing and using advanced cyber capabilities in attempts to 
undermine critical infrastructure, target our livelihoods and 
innovation, steal our National security secrets, and threaten our 
democratic institutions.
    Cybersecurity threats affecting surface transportation have the 
potential to impact the industrial control systems that operate 
pipelines, mass transit, freight rail systems, and our highway 
infrastructure. For example, America depends heavily on the 2.7 million 
miles of pipeline crisscrossing our country. Increasingly, the business 
operations and control systems that are vital to the continuity of this 
part of our energy posture are threatened by cyber attacks from nation-
states and other malicious actors. Many pipelines are now supplied with 
industrial control systems, automated pressure regulators, and control 
valves. If this pipeline infrastructure is intentionally attacked, 
control valves and pressure regulators could be affected. Failure of 
these technologies could lead to pressure surges causing emergency 
shutdowns, unexpected explosions and fires, and other serious 
consequences. The recently-published Worldwide Threat Assessment of the 
intelligence community states, ``China has the ability to launch cyber 
attacks that cause localized, temporary disruptive effects on critical 
infrastructure--such as disruption of a natural gas pipeline for days 
to weeks--in the United States.''
    Similarly, trains are now supplied with on-board information 
technology (IT) systems that provide and receive real-time updates on 
track conditions, train position, train separation, car status, and 
other operational data. While such technologies are designed to provide 
faster and more reliable communications, these wireless communication 
advances result in trains no longer functioning as closed systems, thus 
increasing the cyber risks.
    Today's industrial control systems within highway infrastructure 
are often not only automated but highly integrated. Interconnected road 
networks are controlled by numerous systems and devices such as traffic 
signal systems, ramp metering systems, road weather information 
systems, and field devices that feed into a traffic management center. 
If an individual system or device was deliberately attacked, the 
potential to affect multiple control systems would be a distinct 
reality.
                        cybersecurity priorities
    CISA, our Government partners, and the private sector are all 
engaging in a more strategic and unified approach toward improving our 
Nation's overall defensive posture against malicious cyber activity. In 
May of last year, DHS published the Department-wide DHS Cybersecurity 
Strategy, outlining a strategic framework to execute our cybersecurity 
responsibilities during the next 5 years. Both the Strategy and 
Presidential Policy Directive 21--Critical Infrastructure Security and 
Resilience, emphasize that we must maintain an integrated approach to 
managing risk.
    The National Cyber Strategy, released in September 2018, reiterates 
the criticality of collaboration and strengthens the Government's 
commitment to work in partnership with industry to combat cyber threats 
and secure our critical infrastructure. Together, the National Cyber 
Strategy and DHS Cybersecurity Strategy guide CISA's efforts to secure 
Federal networks and strengthen critical infrastructure. DHS works 
across Government and critical infrastructure industry partnerships to 
share timely and actionable information as well as to provide training 
and technical assistance. Our work enhances cyber threat information 
sharing between and among governments and businesses across the globe 
to stop cyber incidents before they occur and quickly recover when they 
do. By bringing together all levels of government, the private sector, 
international partners, and the public, we are enabling a collective 
defense against cybersecurity risks, while improving our whole-of-
Government incident response capabilities, enhancing information 
sharing of best practices and cyber threats, strengthening our 
resilience, and facilitating safety.
    CISA's National Cybersecurity and Communications Integration Center 
(NCCIC) provides entities with information, technical assistance, and 
guidance they can use to secure their networks, systems, assets, 
information, and data by reducing vulnerabilities, ensuring resilience 
to cyber incidents, and supporting their holistic risk management 
priorities. The NCCIC operates at the intersection of the Federal 
Government, State and local governments, the private sector, 
international partners, law enforcement, intelligence, and defense 
communities. The Cybersecurity Information Sharing Act of 2015 (Pub. L. 
114-113) established DHS as the Federal Government's central hub for 
the sharing of cyber threat indicators and defensive measures. CISA's 
automated indicator sharing capability allows the Federal Government 
and private-sector network defenders to share technical information at 
machine speed.
    Much of our Nation's surface transportation infrastructure is 
dependent on industrial control systems to monitor, control, and 
safeguard operational processes. Many of the industrial control systems 
currently in use were built for operability, efficiency, and 
reliability during an era when security was a lower priority than it is 
today. CISA has a well-established history of working to secure 
industrial control systems across critical infrastructure. In 2004, DHS 
established the Control Systems Security Program to address growing 
concerns over the security of industrial control systems. Since 2009, 
DHS has maintained the Industrial Control Systems Joint Working Group 
as the primary body for communicating and partnering across all 
critical infrastructure sectors and the government at all levels to 
accelerate the design, development, and deployment of secure industrial 
control systems. CISA's industrial control systems cybersecurity 
capabilities include malware and vulnerability analysis; an operational 
watch floor to monitor, track, and investigate cyber incidents; 
incident response; international stakeholder coordination; and the 
creation and dissemination of threat briefings, security bulletins, and 
notices related to emerging threats and vulnerabilities impacting these 
technologies.
                        national risk management
    Our adversaries' capabilities on-line are outpacing our stove-piped 
defenses. Specifically, there has been a critical gap in cross-sector, 
cross-government coordination on critical infrastructure security and 
resilience. Working together with the private sector and other 
Government partners, we are taking collective action to strengthen 
cross-sector, cross-government coordination against malicious cyber 
actors.
    Through the NRMC within CISA, we have stepped up our efforts to 
provide a comprehensive risk management approach to cyber and physical 
security. The NRMC is a core component of DHS's efforts to take a 
holistic cross-sector approach to managing risks to the critical 
functions that drive our economy and are necessary to our National 
security. Through the NRMC, Government and industry are coming together 
to create a more complete understanding of the complex perils that 
threaten the Nation's critical infrastructure.
    Risk is increasingly cross-sector in nature. A siloed approach to 
risk identification and management simply will not work. By the nature 
of the threat, and infrastructure design, risk transcends 
infrastructure sectors, is shared across State and National lines, and 
is held by both Government and industry. As an example, we recently 
briefed industry on cyber activities that have been attributed to 
China. Attempts to steal intellectual property do not discriminate 
between sectors of our economy. From biotechnology, to aircraft 
components, to advanced rail equipment, and electrical generation 
equipment--information is at risk, and it can be weaponized. Similarly, 
the cascading nature of cyber incidents across sectors is very real. We 
need to look no further than NotPetya, the most costly cyber attack in 
history--which we have attributed to Russia--to see how risk easily 
jumps across sectors and continents and how it can hit private sector 
organizations particularly hard.
                      national critical functions
    Historically, the U.S. Government has focused on prioritizing 
critical infrastructure from the perspective of assets and 
organizations. A different approach for prioritization is needed to 
better address system-wide and cross-sector risks and dependencies. 
CISA, through the NRMC, is leading an effort to develop a set of 
National Critical Functions to guide critical infrastructure risk 
management.
    National Critical Functions are defined as ``the functions of 
Government and the private sector so vital to the United States that 
their disruption, corruption, or dysfunction would have a debilitating 
impact on National security, economic security, National public health 
or safety.'' This construct forces a risk management conversation that 
is less about whether an entity is a business or Government, and more 
about what an entity does to manage risk and what risk it enables. This 
framework allows us to look at issue sets in the risk management space 
not in isolation, but with a more holistic context.
    We are partnering with SSAs and all 16 critical infrastructure 
sectors, including the Transportation Systems, Communications, 
Financial Services, and Energy sectors to identify and validate 
National Critical Functions. This list will be finalized in the coming 
months and will form the basis for subsequent analysis--including 
consequence modeling and dependency analysis--in order to develop a 
Risk Register of the most pressing threats facing the critical 
infrastructure community. Such a Risk Register will guide collective 
action between Government and industry on how to best address risk 
management.
    In doing the critical functions work, we have already identified 
aspects associated with surface transportation, such as pipeline 
operations, that need to be prioritized in terms of security. Although 
we are in our early stages of that work, we agree with the committee on 
the pressing need to address risks associated with nation-state 
exploitation of vulnerabilities that link information to infrastructure 
operations and which could have significant consequences on community 
and economic security.
                  surface transportation cybersecurity
    The Pipeline Security Initiative is a partnership between CISA, 
TSA, the Department of Energy, and industry. Bad actors have shown 
interest in infiltrating systems in sectors with less mature cyber 
hygiene, and using that access to better understand ways to manipulate 
equipment in sectors with more advanced security protocols. This can 
lead to critical pipeline systems, including water, natural gas, and 
liquid fuels, being at risk.
    By leveraging the TSA's SSA expertise and CISA's technical 
cybersecurity capabilities, the Pipeline Security Initiative is working 
to improve our ability to identify and mitigate vulnerabilities to the 
pipeline ecosystem. This initiative uses different voluntary 
assessments--ranging from single and multi-day inspections to self-
assessments--to help our industry partners identify and mitigate 
potential vulnerabilities and provide the Government with a broader 
view of pipeline security risk.
    In December 2018, we completed our first comprehensive assessment 
under this new initiative. This initial assessment served as a 
successful test-bed to ensure that tools and other techniques offer the 
detail and data necessary to conduct the comprehensive analysis needed 
to ensure critical services and product flow through the pipeline 
systems. We anticipate 9 more assessments in 2019.
                           supply chain risks
    Information and communications technology (ICT) is critical to 
every business and Government agency's ability to carry out its mission 
efficiently and effectively. Vulnerabilities in ICT can be exploited 
intentionally or unintentionally through a variety of means, including 
deliberate mislabeling and counterfeits, unauthorized production, 
tampering, theft, and insertion of malicious software or hardware. If 
these risks are not detected and mitigated, the impact to the ICT could 
be a fundamental degradation of its confidentiality, integrity, or 
availability and potentially create adverse impacts to essential 
Government or critical infrastructure systems.
    Increasingly sophisticated adversaries seek to steal, compromise, 
alter, or destroy sensitive information on systems and networks, and 
risks associated with ICT may be used to facilitate these activities. 
The Office of the Director of National Intelligence (ODNI) acknowledges 
that ``the U.S. is under systemic assault by foreign intelligence 
entities who target the equipment, systems, and information used every 
day by Government, business, and individual citizens.'' The 
globalization of our supply chain can result in component parts, 
services, and manufacturing from sources distributed around the world. 
ODNI further states, ``Our most capable adversaries can access this 
supply chain at multiple points, establishing advanced, persistent, and 
multifaceted subversion. Our adversaries are also able to use this 
complexity to obfuscate their efforts to penetrate sensitive research 
and development programs, steal intellectual property and personally 
identifiable information, insert malware into critical components, and 
mask foreign ownership, control, and/or influence of key providers of 
components and services.''
    CISA has launched the ICT Supply Chain Risk Management (SCRM) Task 
Force as a public-private partnership to mitigate emerging supply chain 
threats. The Task Force is the main private-sector point of entry for 
our SCRM efforts and is jointly chaired by DHS and the chairs of IT and 
Communications Sector Coordinating Councils. The Task Force is focused 
on supply chain threat information sharing, supply chain threat mapping 
and assessment, establishing criteria for qualified bidder and 
manufacturer lists, and incentivizing the purchase of ICT from original 
manufacturers and authorized resellers.
                               conclusion
    In the face of increasingly sophisticated threats, DHS employees 
stand on the front lines of the Federal Government's efforts to defend 
our Nation's critical infrastructure from natural disasters, terrorism 
and adversarial threats, and technological risk such as those caused by 
cyber threats. The coming revolution of autonomous operations of 
infrastructure and other core functions, which combines data, machine 
learning, algorithms, and computing power and which is associated with 
massive new markets in artificial intelligence, smart cities, and 
quantum computing is going to radically change the nature of National 
security. The underpinning systems enabling functioning infrastructure 
have become more complex, and design considerations have created new 
vulnerabilities. Combine the reality of adversaries who are seeking to 
achieve strategic gain in the global marketplace and there is an 
essential imperative to have security remain a first-order 
consideration for key infrastructure deployments and in the 
establishment of supply chains.
    CISA is working with partners to meet this century's risks. Doing 
so requires being vigilant about security risk today and playing the 
long game--which will require continued collaboration between the 
Executive and Legislative branches. As the committee considers these 
issues, we are committed to working with Congress to ensure that this 
effort is done in a way that cultivates a safer, more secure, and 
resilient homeland.
    Thank you for the opportunity to appear before the committee today, 
and I look forward to your questions.

    Mr. Correa. Thank you, Mr. Kolasky.
    I will now recognize Ms. Proctor, for your testimony; if 
you can summarize your statements in 5 minutes. Thank you.

  STATEMENT OF SONYA T. PROCTOR, DIRECTOR, SURFACE DIVISION, 
    OFFICE OF THE SECURITY POLICY AND INDUSTRY ENGAGEMENT, 
             TRANSPORTATION SECURITY ADMINISTRATION

    Ms. Proctor. Thank you.
    Good morning, Chairman Thompson, Chairman Correa, and 
Richmond, and Ranking Member Lesko, and distinguished Members 
of the subcommittee. Thank you for the opportunity to appear 
before you this morning to discuss the Transportation Security 
Administration's efforts to secure surface transportation 
systems including oil and natural gas pipelines from 
cybersecurity risks. I also want to thank you for the TSA 
Modernization Act and the support of that.
    TSA is committed to securing the transportation sector, 
which includes pipelines, against evolving and emerging risks 
such as cyber attacks; partnering with our private-sector 
partners to secure surface transportation from cyber attacks is 
a critically important and complex undertaking.
    The U.S. surface transportation system is a complex 
interconnected and largely open network comprised of mass 
transit systems, passenger and freight railroads, over-the-road 
bus operators, motor carrier operators, pipelines, and maritime 
facilities. The various modes that make up the system operate 
daily in close coordination with and proximity [inaudible] 
transportation system, operating securely and safely.
    Every year more than 10 billion trips are taken on 6,800 
U.S. mass transit systems which range from small bus-only 
systems in rural areas to large multi-modal systems in urban 
areas. Over-the-road bus operators carry approximately 604 
million inter-city bus passengers each year; over 3,300 
commercial bus companies travel on the 4 million miles of 
roadway in the United States and on more than 600,000 highway 
bridges and through over 470 tunnels. Those same roads, 
bridges, and tunnels support the movement of goods throughout 
the country by 8 million large-capacity commercial trucks.
    As for our railroads and pipelines, more than 570 
individual freight railroads carrying essential goods, operate 
on nearly 140,000 miles of track and 2.75 million miles of 
pipelines owned and operated by approximately 3,000 private 
companies, transporting natural gas, refined petroleum 
products, and other commercial products.
    TSA's functions and authorities as a security agency are 
uniquely structured to tackle the challenges at the 
intersections of surface transportation and cyber risks. To 
secure these networks, TSA leverages its mature intelligence 
and analysis capability along with its vetting and 
credentialing programs to ensure it can quickly develop and 
promulgate risk mitigation guidelines and measures to 
effectively [inaudible] efforts are bolstered by strong 
partnerships, trust, and collaboration with our Federal 
industry and partners.
    In this regard industry works with TSA to share their own 
unique vulnerabilities and security needs. Through this open 
communication we collaboratively develop programs and 
guidelines for industry to voluntarily adopt to increase their 
overall security posture an approach that has yielded 
significant security investments and improvements beyond what 
the agency would have achieved from a regulatory approach 
alone. We believe that this voluntary and collaborative 
approach to developing and implementing security measures has 
been successful.
    However, we also recognize that should arise based on an 
eminent threat or real-world event the TSA administrator has 
unique authority to require immediate implementation of certain 
security measures through the issuance of security directives.
    In December 2018 the TSA administrator issued the agency's 
Cybersecurity Roadmap which will guide efforts to prioritize 
cybersecurity measures within TSA and across the transportation 
system over the next 5 years. TSA approaches both cybersecurity 
and physical security by identifying, assessing, and mitigating 
the risk. TSA helps surface owners and operators identify 
vulnerabilities and risks in their operations and works with 
them to develop and implement risk mitigating solutions.
    In closing TSA has been able to support the improvement of 
both physical and cybersecurity across all surface modes of 
transportation, including pipelines, thanks to the trust and 
relationships we have cultivated with our Federal partners and 
industry as evidenced by the programs and resources TSA has 
collaboratively developed and implementing for our surface 
transportation stakeholders. TSA is committed to securing the 
Nation's surface transportation system from terrorist 
activities and cyber attacks.
    TSA looks forward to working with Congress on these efforts 
and thank you for the opportunity to discuss these issues here 
with you today. I look forward to the subcommittee's questions.
    [The prepared statement of Ms. Proctor follows:]
                 Prepared Statement of Sonya T. Proctor
                           February 26, 2019
    Good morning Chairmen Correa and Richmond, Ranking Members Lesko 
and Katko, and distinguished Members of the subcommittees. Thank you 
for the opportunity to appear before you to discuss the Transportation 
Security Administration's (TSA) efforts to secure surface 
transportation systems including oil and natural gas pipelines from 
cybersecurity risks.
    TSA is committed to securing the transportation sector, which 
includes pipelines, against evolving and emerging risks, such as cyber 
attacks. Partnering with our private-sector partners to secure surface 
transportation from cyber attacks is a critically important and complex 
undertaking. As the director of national intelligence recently stated, 
our adversaries and strategic competitors have cyber attack 
capabilities they could use against U.S. critical infrastructure, 
including U.S. surface transportation. As a disruption to any of these 
systems would negatively impact our economy, commerce, and well-being, 
the cyber attack threat is driving the Department of Homeland 
Security's efforts to increase the cyber resilience of surface 
transportation.
                         surface transportation
    The U.S. surface transportation system is a complex, 
interconnected, and largely open network comprised of mass transit 
systems, passenger and freight railroads, over-the-road bus operators, 
motor carrier operators, pipelines, and maritime facilities. The 
various modes that make up this system operate daily in close 
coordination with and proximity to one another. Americans and our 
economy depend on the surface transportation system operating securely 
and safely.
    Every year more than 10 billion trips are taken on 6,800 U.S. mass 
transit systems, which range from small bus-only systems in rural areas 
to large multi-modal systems in urban areas. Over-the-road bus 
operators carry approximately 604 million intercity bus passengers each 
year. Over 3,300 commercial bus companies travel on the 4 million miles 
of roadway in the United States and on more than 600,000 highway 
bridges greater than 20 feet in length and through over 470 tunnels. 
Those same roads, bridges, and tunnels support the movement of goods 
throughout the country by 8 million large capacity commercial trucks.
    As for our railroads and pipelines, more than 570 individual 
freight railroads carrying essential goods operate on nearly 140,000 
miles of track, and 2.75 million miles of pipelines, owned and operated 
by approximately 3,000 private companies, transport natural gas, 
refined petroleum products, and other commercial products.
    TSA's functions and authorities as a security agency are uniquely 
structured to tackle the challenges at the intersections of surface 
transportation and cyber risks. To secure these networks, TSA leverages 
its mature intelligence and analysis capability, along with its vetting 
and credentialing programs to ensure it can quickly develop and 
promulgate risk mitigation guidelines and measures to effectively 
coordinate and address evolving risk.
    TSA's security efforts are bolstered by strong partnerships, trust, 
and collaboration with our Federal and industry partners. In this 
regard, industry works with TSA to share their own unique 
vulnerabilities and security needs. Through this open communication, we 
collaboratively develop programs and guidelines for industry to 
voluntarily adopt to increase their overall security posture--an 
approach that has yielded significant security investments and 
improvements beyond what the agency would have achieved from a 
regulatory approach alone.
    We believe that this voluntary and collaborative approach to 
developing and implementing security measures has been successful. 
However, we also recognize that should the need arise, based on an 
imminent threat or real-world event, the TSA administrator has unique 
authority to require immediate implementation of certain security 
measures through the issuance of Security Directives (SDs).
    TSA also actively collaborates with law enforcement entities, such 
as the Federal Bureau of Investigation (FBI), the Department of 
Justice, and the Joint Terrorism Task Force, to address attacks on 
critical infrastructure and supporting networks. For example, TSA works 
with the FBI to share intelligence information and host joint working 
groups on investigation and enforcement for attacks on surface 
transportation infrastructure. TSA also serves on the Energy Sector 
Government Coordinating Council, co-chaired by the Department of Energy 
and the DHS Cybersecurity and Infrastructure Security Agency (CISA), to 
discuss energy and pipeline security issues, provide insight on 
relevant intelligence, and coordinate at the Federal level on pipeline-
related security recommendations and programs. Additionally, TSA works 
closely with the Pipeline and Hazardous Materials Safety Administration 
within the Department of Transportation for incident response and 
monitoring of pipeline systems.
                       tsa cybersecurity roadmap
    In December 2018, the TSA administrator issued the agency's 
Cybersecurity Roadmap, which will guide efforts to prioritize 
cybersecurity measures within TSA and across the transportation system 
sector over the next 5 years. The Cybersecurity Roadmap identifies 4 
priorities which will help the agency achieve its cybersecurity goals:
  <bullet> Identify cybersecurity risks;
  <bullet> Reduce vulnerabilities to our systems and critical 
        infrastructure across the transportation systems sector;
  <bullet> Mitigate consequences if and when incidents do occur; and,
  <bullet> Strengthen security and ensure the resilience of the system.
    The TSA Cybersecurity Roadmap has been supplemented with the 
development of an implementation plan which will assist in resource 
allocation to this critical area. In coordination with CISA, the 
Federal Government's lead cybersecurity agency, the TSA Cybersecurity 
Roadmap brings TSA's cybersecurity efforts into alignment with both the 
National Cyber Strategy and the DHS Cybersecurity Strategy.
         tsa's cybersecurity efforts for surface transportation
    TSA approaches both cybersecurity and physical security by 
identifying, assessing, and mitigating any risks. TSA helps surface 
owners and operators identify vulnerabilities and risks in their 
operations, and works with them to develop and implement risk-
mitigating solutions.
    TSA's cybersecurity approach to its critical infrastructure mission 
is based on the National Institute of Standards and Technology (NIST) 
cybersecurity framework, which is designed to provide a foundation that 
industry can implement to sustain robust cybersecurity measures. TSA 
shares information and resources with industry to support adoption of 
the framework.
    TSA cybersecurity resources and efforts for all modes of surface 
transportation include:
  <bullet> Cybersecurity Toolkit.--Provides information on an array of 
        resources, recommendations, and practices available at no cost 
        to surface transportation entities.
  <bullet> Cybersecurity Counterterrorism Guides.--``Pocket'' resource 
        guides to help educate all levels of surface transportation 
        professionals on potential cyber threats, actions they can 
        take, and best practices. Over 59,000 cybersecurity guides have 
        been distributed across all modes of surface transportation.
  <bullet> Cybersecurity ``5N5'' Workshops.--Provides owners and 
        operators of critical infrastructure with an awareness of 
        existing cybersecurity support programs, resources, familiarity 
        with the NIST Framework, and an opportunity to discuss 
        cybersecurity challenges and share best practices. Workshop 
        participants leave with immediate benefit by receiving 5 non-
        technical cybersecurity actions to implement over 5 days (5N5).
  <bullet> Cybersecurity Awareness Messages (CAMs).--Disseminates 
        information to stakeholders either in response to real-world 
        events or in anticipation of significant anniversaries or 
        holidays to support the transportation security community's 
        efforts to increase their cybersecurity posture, and recommends 
        voluntary cybersecurity protective measures.
  <bullet> Daily Cybersecurity Reports.--The Public Transit and Over-
        the-Road Bus Information Sharing and Analysis Centers 
        distribute daily cybersecurity awareness reports to their 
        members.
    Pipeline-specific cybersecurity efforts include:
  <bullet> TSA Pipeline Security Guidelines.--Initially developed in 
        2010 and revised in 2011, the Guidelines were revised again in 
        2018 to align with the NIST Cybersecurity Framework. TSA added 
        a new cybersecurity section to more accurately reflect the 
        current threat environment to help inform industry on how best 
        to allocate their security resources based on their operations.
  <bullet> TSA-Federal Energy Regulatory Commission (FERC) Joint 
        Voluntary Cyber Architecture Reviews.--Assesses the pipeline 
        system's cybersecurity environment of operational and business 
        critical network controls. These controls include the networked 
        and segregated environments of Industrial Control System 
        components, such as Supervisory Control and Data Acquisition, 
        Distributed Control Systems, Remote Terminal Units, Human 
        Machine Interfaces, and Process Logic Controllers.
  <bullet> Pipeline Cybersecurity Assessments.--DHS has established an 
        initiative to evaluate the cybersecurity posture of critical 
        oil and natural gas pipeline systems to determine their 
        cybersecurity practices and promote resilience. TSA has 
        partnered with CISA to develop on-site cyber assessments of key 
        pipeline systems as part of the Pipeline Security Initiative. 
        The assessments will provide pipeline owners with a 
        comprehensive evaluation and discovery process, focusing on 
        defense strategies associated with asset owners' specific 
        control systems network and segregated control assets. We plan 
        to evaluate as many critical pipeline systems as possible on 
        their cybersecurity posture by the end of this fiscal year, as 
        time and funding allows.
  <bullet> Corporate Security Review (CSR) Program and Critical 
        Facility Security Review (CFSR) Programs.--CSRs are conducted 
        to evaluate existing corporate security policies, procedures, 
        and practices, and make recommendations for improving existing 
        corporate security posture. The TSA CSRs have been updated to 
        include a more comprehensive and robust review of the 
        cybersecurity policies, plans, and practices that the pipeline 
        industry is employing. The CFSR program evaluates the top 100 
        most critical pipeline systems in the United States, collecting 
        site-specific information from the facility operator on 
        security policy, procedures, and physical security measures. 
        The CFSR program assessment questions have also been updated to 
        include cyber-specific measures.
  <bullet> Classified Briefings.--TSA sponsors Classified briefings for 
        pipeline owners and operators. These briefings provide owners 
        and operators with a need to know on updated pipeline cyber 
        threat information.
          pipeline security success through voluntary actions
    TSA had great success in working with the pipeline community to 
develop and implement voluntary guidance and programs to enhance their 
overall security programs and raise their baseline levels of security. 
Specifically, the pipeline community has been very supportive and 
receptive to our Pipeline Security Guidelines, including the addition 
of a comprehensive cybersecurity section. The guidelines serve as the 
de facto standard for pipeline security programs, and were developed in 
close coordination with the pipeline industry. Major pipeline industry 
associations continue to show support of and collaboration with the 
measures set forth in the guidelines. Associations such as the American 
Gas Association, the Interstate Natural Gas Association of America, and 
the American Petroleum Institute, have written ``membership 
statements'' committing to voluntary adherence to the Pipeline Security 
Guidelines.
    Pipeline operators have shown a willingness and ability to 
voluntarily implement the mitigation measures set forth in the 
guidelines. We have strong evidence that an industry-backed voluntary 
program to reduce risk by increasing compliance with the guidelines is 
working. TSA conducted 23 CSRs in fiscal year 2018, and those pipeline 
operators assessed had a 90 percent compliance rate regarding Corporate 
Security Program Management; an 85 percent compliance rate regarding 
Security Incident Management; and an 80 percent compliance rate 
regarding the TSA recommended cybersecurity practices detailed in the 
2011 Guidelines. In addition, we have seen a strong increase in 
corporate compliance when comparing results from a second review to a 
company's first review. For 10 companies where we have conducted a 
second CSR, we have seen the number of recommendations made decrease 
from a total of 446 recommendations (first review) to 146 (second 
review). In addition, companies have implemented corrective actions on 
over 81 percent of the recommendations made during our CFSRs. This very 
high rate regarding corrective actions is indicative of industry 
acceptance and adherence to TSA Guidelines. In fiscal year 2019, we 
will compile similar CSR data based on the updated 2018 Guidelines, 
which will help determine how and where we apply additional resources 
to the pipeline industry.
                               conclusion
    In closing, TSA has been able to support the improvement of both 
physical and cybersecurity across all surface modes of transportation, 
including pipelines, thanks to the trust and relationships we have 
cultivated with our Federal partners and industry. As evidenced by the 
programs and resources TSA has collaboratively developed and 
implemented for our surface transportation stakeholders, TSA is 
committed to securing the Nation's surface transportation system from 
terrorist and cybersecurity attacks. TSA looks forward to working with 
Congress on these efforts. Thank you for the opportunity to discuss 
these important issues. I look forward to the subcommittees' questions.

    Mr. Correa. Thank you, Ms. Proctor.
    I thank both of our witnesses for their comments.
    Remind the Members that each one of us will have 5 minutes 
for questions.
    I will now recognize myself for some questions. Ms. 
Proctor, I would like to start out with you. TSA currently 
relies on voluntary standards for pipeline [inaudible] tell me, 
is this good or bad?
    Ms. Proctor. The approach that we use for working with the 
pipeline industry has been very successful. Yes, we indeed do 
use a voluntary approach, our Pipeline Security Guidelines were 
developed with the industry and they were developed to allow a 
voluntary involvement with the pipeline industry. What we know 
is that with these guidelines we have flexibility to adjust the 
guidelines to the threat environment and certainly if the 
threat dictates, if there is a significant threat, the 
administrator of TSA has the authority to issue a security 
directive to focus on that threat and to require security 
measures to address that specific threat.
    Mr. Correa. So, Ms. Proctor, you are saying because of the 
characteristics of cyber attacks that specific regulations 
would be counterproductive in this area?
    Ms. Proctor. Yes, Mr. Chairman. The nature of cyber threats 
is that they are constantly emerging. They are emerging--much 
faster than the Government's ability to write regulations to 
address them and in this fashion if there is a significant 
cyber threat the administrator may address that through a 
security directive.
    Mr. Correa. Any thoughts about how you would keep us as 
policy makers apprised of your progress or lack thereof since 
you are looking at really voluntary standards, self-reporting?
    Ms. Proctor. Mr. Chairman, we would be happy to report to 
this committee on our progress with industry on the progress of 
the assessments that we conduct with industry; we actually go 
out and conduct corporate security reviews, looking at the 
headquarters, planning, the planning for cybersecurity plans, 
physical plans, and we go out into the field and conduct 
assessments at critical facilities. We conduct critical 
facility, security reviews in the field and we are comparing 
what we see in the field to the agreed-upon Pipeline Security 
Guidelines.
    Mr. Correa. Complying with the cybersecurity challenge can 
be very expensive, for the private sector or Government. So my 
question to you is, the private sector, do you see them 
complying voluntarily with what they have got to do? Which is 
to come up with the best practices, minimum standards or do you 
have to push folks to go in the right direction; do you have to 
push folks to do the right thing?
    Ms. Proctor. Sir, what we have witnessed is that the 
voluntary approach has been very successful. We have found that 
the companies are making those investments in their own 
cybersecurity, as well physical security, and they are doing 
that to protect their ability to carry on their business as 
well so we do believe that it has been effective in this 
voluntary environment.
    Mr. Correa. Quickly, another area, the realignment, TSA is 
realigning some of its functions. Can you explain to us how 
this realignment will affect surface transportation security?
    Ms. Proctor. As a result of the realignment that 
Administrator Pekoske has directed, the Surface Division assets 
are going to shift over into the security operations area where 
they will join with our Transportation Security Inspectors who 
are already in the field, that Field Force is 200-plus strong 
so we will be combining our surface division--our current 
surface division assets with the 200-plus Transportation 
Security Inspectors in the field, they will be working with us 
in conjunction with our transportation security partners in the 
field.
    Mr. Correa. Thank you very much.
    I am going to yield the remainder of my time.
    I will now recognize our Ranking Member for the 
Transportation Subcommittee, the gentlewoman from Arizona, Mrs. 
Lesko, for some questions.
    Ma'am.
    Mrs. Lesko. Thank you, Mr. Chairman.
    My first question is for either Ms. Proctor or Mr. Kolasky, 
or both. Some have suggested that other Federal agencies take 
over the role of physical and cybersecurity for pipelines, such 
as the Department of Energy and I was wondering if one of you 
or both of you can comment on why you think that it is 
important that it remains under the purview of TSA and 
Department of Homeland Security?
    Ms. Proctor. Thank you, Ranking Member. We do believe that 
the security of pipelines is best placed under the Department 
of Homeland Security and the assets that the Department of 
Homeland Security can bring to bear for the security of the 
pipelines.
    As has been mentioned here today, we are working very 
closely with CISA to conduct comprehensive cybersecurity 
assessments on pipelines and the authority that I mentioned 
that the administrator, the TSA administrator has, gives him 
the authority to require whatever measures are necessary to 
secure the pipelines to be implemented almost immediately at 
his direction, to secure the pipelines from any type of threat, 
whether that threat is a cyber threat or whether it is a 
physical threat.
    Mr. Kolasky. If I could just add to that, Ranking Member 
Lesko, you know, one of the things we recognize, Sonja, and I, 
and our offices recognized is that we have some unique 
capability across DHS that we can apply to the pipeline threat 
and within the agency, the partnership we have established has 
really served as a force multiplier to TSA cybersecurity 
efforts.
    The other thing I would augment that with, why I think this 
is a good place for it to be, is the fact that a lot of the 
nature of these risks, the control systems, the fact that 
pipelines contribute to other critical infrastructures are 
cross-sector and we really are a place and we serve as the hub 
to bring information across sectors when we learn about risks 
to some operational technologies, we can quickly get it in the 
hands of TSA, to get out to the pipeline owners and operators, 
we work together on that.
    There's just a lot of shared risk in this space and 
separating critical infrastructure, too much across agencies 
you know, really runs the risk of creating stovepipes. I mean, 
right now we have got a nice blended mix of working with 
agencies, we work closely with the Department of Energy but I 
don't think you want to take cybersecurity responsibilities out 
of DHS and put them further afield because of that they are 
more just challenge----
    Mrs. Lesko. I have one more question for, Ms. Proctor. Let 
me just read this from my notes. Recently the GAO determined 
that, in a recent audit, determined that [inaudible] risk had 
failed to identify critical facilities due to a lack of clarity 
from TSA on defining of facilities' criticality. To remedy 
these challenges GAO recommended that the TSA administrator 
take 10 actions with which TSA concurred [inaudible] what 
actions have been taken so that these high risks are 
identified?
    Ms. Proctor. Yes ma'am. Certainly, we have reviewed the GAO 
report. We concur with the recommendations that GAO offered and 
we are in the process now of addressing those recommendations 
that were made by GAO. As you noted there were 10 
recommendations that were made by GAO and four of those 
recommendations deal with the pipeline risk ranking tool that 
we used to help establish risk in the pipeline industry so we 
are diligently working on all of the recommendations but we do 
expect to have at least the first recommendation concluded 
within about 60 days.
    Mrs. Lesko. Thank you, ma'am.
    I yield back my time.
    Mr. Correa. Thank you, Mrs. Lesko.
    I now recognize the Chairman of the Cybersecurity 
Subcommittee, the gentleman from Louisiana, Mr. Richmond.
    Mr. Richmond. I will pick up where the Ranking Member left 
off and, Ms. Proctor, your answer indicates that you will 
accomplish number 1 out of 10 in 60 days, what about the other 
9?
    Ms. Proctor. Mr. Chairman, we are working on all of those 
10 recommendations at the same time. We have limited resources 
to work on all of them at the same time so we are working to 
address the ones that we know that we can satisfy and those 
involve, again there were 4 that were associated with the risk 
ranking tool, so we are working directly on those, as well as 
the one that addresses the policy that we need to put in place 
for the review of the actual guidelines.
    Mr. Richmond. Let me just give you kind of an overview of 
my district, largest petrochemical footprint in the country. We 
are neighbors to chemical facilities. We have all of the major 
rail lines running through our communities and for the most 
part they are good corporate neighbors, good employers, and 
they pay well.
    However when we look at the risk associated with that, we 
have to make sure we mitigate it because on those rail cars 
that come through our communities are dangerous chemicals and 
every other thing that you can think of. So when we are looking 
at this, are we communicating the best, do we have strategic 
partnerships set up? It is important to us and so as we talk 
about the cyber risk for, let us say rail, and our pipelines 
and our oil rigs and all of those, that now a lot of that is 
controlled electronically.
    If you think about the BP disaster which was an accident, 
think of a BP disaster that was an attack, so how are we 
communicating with those companies? But have we done anything 
to make sure that those companies are holding their 
subcontractors in their supply chain to the same high standards 
that we want to hold them to?
    Mr. Kolasky. So I can talk a little bit about of the nature 
of your question. As you know, you mentioned chemical, you 
know, through the CFATs regulation we put additional 
requirements on chemical security, some of the facilities that 
dealt with that. You know, you referenced the oil and natural 
gas industry which operates pipelines that produces a lot of 
what you are talking about; we work closely with the oil and 
natural gas industry, with the Department of Energy.
    You know, specifically in terms of supply chain risk, we 
agree that this is an area that we have got to get deeper into, 
people understanding the supply chain, I think there's an 
understanding of that.
    I referenced in my opening remarks a task force that we 
have established with critical infrastructure owners and 
operators which are focused particularly on threat information 
sharing, setting up processes through threat-based decision 
making, where should threat-based decision-making criteria be 
established, that will be an interagency process where we are 
able to get threat information out to help owners and operators 
make a decision about companies or products they might not want 
inserted in the supply chain; we are advocating, more deeply 
understanding what is in a supply chain, that is an important 
element.
    But then there's also, it has to be mitigation steps, you 
know, are people [inaudible] again is that written in the 
expectation to do so in the contracts, that is the kind of 
stuff we are studying the Task Force to make recommendations to 
the Federal Government, how to do that for our own Federal 
networks but also for critical infrastructure owners and 
operators and what incentives will get people deeper in.
    So you know, I would summarize a problem that we probably 
don't have enough information out there to help everyone be 
smarter buyers that could [inaudible] in talking industry we 
will understand why the information might not lead to the right 
decisions being made or us taking too much risk on, we don't 
want to deal with this by just cutting off things but we want a 
better understanding of risks that is being put into supply 
chains and when there are [inaudible] that could be put out 
there.
    Mr. Richmond. Well, and I guess I will just say before Ms. 
Proctor takes a shot of it but think of passenger rail which is 
almost completely electronic, what are we doing to ensure the 
traveling public safety and do we have a sense of urgency 
understanding the risk that is out there?
    With that, Mr. Chairman, I will yield back the balance of 
my time.
    Mr. Correa. Thank you, Chairman Richmond.
    The Chair will now recognize other Members for questions 
that they may want to ask.
    In accordance with our committee rules, I will recognize 
Members who were present at the start of the hearing, based on 
seniority in the committee, alternating between Majority and 
Minority. Those Members coming in later will be recognized in 
the order of their arrival.
    The Chair recognizes for 5 minutes, the gentlelady Ms. 
Barragan, from California.
    Ms. Barragan. Thank you.
    I am going to actually, going to follow up on a question 
that Congressman Richmond just asked. In December 2016 L.A. 
Metro received a terror threat from abroad. It led to 
heightened security and this terror threat was on a commuter 
rail station, one that went into downtown Los Angeles, impacted 
about a 150,000 riders a day on this line. So my question, it 
was very similar to what Mr. Richmond just asked, but didn't 
get an answer from. So I am going to follow up there.
    When we talk about cybersecurity risk, to what degree are 
we considering the safety of the traveling public as well, and 
passenger rail and mass transit rely on computerized systems; a 
cybersecurity attack on the system could also mean risking the 
safety of the traveling public. What is being done to mitigate 
these risks to the public and both of you can answer.
    Ms. Proctor. We provide both information and intelligence 
and that intelligence is delivered sometimes in an unclassified 
setting but it is also delivered in a Classified setting, that 
is one of the most important things that we do, is keeping the 
systems informed about the level of threat, the type of threat, 
which gives them the information that they need to apply 
mitigating measures to that particular threat.
    In conjunction with the supply chain issues that my 
colleague mentioned, those issues put them in the best position 
to ensure the safety of the traveling public. Most of our 
transit systems have either their own law enforcement component 
or they have an agreement with their local law enforcement 
agency to provide security for the system. We have found them 
to be very engaged.
    We have found them to be involved not only in receiving 
information not only from TSA but from our colleagues at the 
FBI, with the Joint Terrorism Task Force and with their 
[inaudible] to be effective. When we receive information that 
suggests that some threat is present in mass transit you will 
often see an increased visibility; uniformed law enforcement 
officers including the VIPER teams from TSA, the ground-based 
Federal Air Marshals who support our surface transportation.
    We take that information very seriously and as soon as we 
receive information that suggests that there might be some 
threat to the system and whether that threat is physical or 
cyber, we reach out to those systems to make sure that they are 
aware so they can start to apply mitigating measures.
    Ms. Barragan. Right.
    Mr. Kolasky, do you want to add anything to that?
    Mr. Kolasky. Yes. Let me talk to, specifically about the 
rail. So Sonya mentioned information sharing, we know a lot 
about cyber information, cyber things that might be happening 
but one thing we did, a couple years ago is work with the rail 
industry to attach cyber indicators, things that could be 
happening in terms of tactics, techniques of a cyber attack, to 
controls that would be most useful in a rail transit context. 
So you know, we took general information and we organized it by 
using the NIST Cybersecurity Framework, working with industry 
where we could take specific indicators and say, if you see 
this sort of stuff, here's what you might want to do in a rail 
system, it is--it is that customization that helps.
    Then I would just add on the physical security which you 
referenced in 2016 and another thing we do DHS is you know, try 
to enhance soft-target security and technology development that 
can be deployed in transit settings you know, through our 
Science and Technology Directorate partnership with TSA and 
[inaudible] and do stuff through funding in transit systems so 
you know, we are getting better every [inaudible].
    Ms. Barragan. Recruiting and retaining a skilled cyber work 
force is something the DHS and this committee has had a top 
priority to do. Historically CISA has struggled to fill 
important cybersecurity positions and I understand that TSA is 
also looking to grow its cybersecurity work force. Mr. Kolasky, 
does the new National Risk Management Center have enough of the 
right people to carry out the ambitious goals you described 
without depleting personnel from other parts of CISA?
    Mr. Kolasky. We have all pledged not to cannibalize each 
other so I think that is a good strategy here.
    You know, we started with a good basis of analysts who have 
experience, thinking about strategic risk, analyzing strategic 
risks, doing planning, but we will be continuing hiring as we 
go forward to establishing the National Risk Management Center, 
we have about 20 positions that we are in the process of 
filling so you know, as a director of an organization I always 
want more talent; we are going to be pushing for it. I think we 
have the ability to recruit people, becoming the Cybersecurity, 
Infrastructure Security Agency is motivating us to get better 
candidates; we are using tools, incentives to hire people and 
things like that, but we want to keep pushing.
    Ms. Barragan. Yield back.
    Mr. Correa. Thank you, Mrs. Barragan.
    I will now call on the gentlelady from New York, Miss Rice, 
for 5 minutes for questions.
    Miss Rice. I am familiar with one of the largest subway 
systems that we have in this country, New York City Subway 
System. It is a system that services 5.7 million people every 
single day, traveling through 472 subway stations and across 
662 miles of track--that is 1.8 billion people per year so I 
wonder if there is a strategy specifically. I need to look into 
this with the NYPD which I think is probably one of the premier 
law enforcement agencies that you work hand-in-hand with.
    Is there a strategy, and more importantly in New York City 
where everyone is very impatient, and likes to get from Point A 
to Point B as quickly as possible? You know, after 9/11 
everything changed about how you travel, when you go into the 
airport.
    Is there a public appetite for that kind of security system 
before you enter any system and I guess this is really a 
rhetorical question so that is just to throw that out there and 
I mentioned the impatience of New Yorkers because anything that 
slows down their travel is something that they will probably 
squawk about but you know, I would hate to have that be 
instituted after a terrible tragedy happens where the appetite 
might be more [inaudible] another thing, I'd like to ask you 
about is China's growing footprint in the United States. 
Industrial supply chain and infrastructure. They are rooted in 
part by the emergence of the state-owned China Railway Rolling 
Stock Corporation, CRRC for short, which I am sure you are all 
well aware but they have won 4 out of 5 large U.S. 
transportation [inaudible] has won contracts with the 
Metropolitan transportation authorities in Philadelphia, 
Boston, Chicago, and Los Angeles.
    Another source I believe of the anxiety around these 
acquisitions concerns is the development that CRRC won these 
contracts by placing low bids. Many critics point to the fact 
that the company receives support from Chinese government 
through state subsidies which other contractors do not.
    But also you know, you have Members of Congress, the 
Pentagon, and industry experts that have stated concerns about 
China's capabilities in deploying Chinese manufactured subway 
railcars to engage in cyber espionage and surveillance, similar 
to the Government's concern when it comes to Huawei in the 
telecommunications field. What is the level of concern that 
either one of you have? You know, and I guess this is a supply 
chain question as well, but it seems to me that this is like a 
big red flag; I know that New York does not contract with CRRC 
but just your thoughts on that, it seems like just such a huge 
red flag.
    Mr. Kolasky. So two versions of thoughts. One thing that we 
have to do, what we can to protect our information to not allow 
China to use business information. [inaudible] There is an 
increased threat and risk out there.
    If you ask our specific concerns about any one of these, it 
is less about whether it is CRRC or anything, it is about 
practices that have been put in place to make sure that risk 
isn't being introduced into the system.
    So you know, this really comes into procurement questions, 
do we have tight procurement, let us please not go with the 
lowest bidder price-wise if you are a Metro Transit Authority, 
let us make sure that they hit pretty tough security 
requirements and then you can make a price-based decision but 
the security requirements have to be built into the contracts, 
part of those security requirements is looking at the 
manufacturing, where the manufacturer's going, getting eyes on 
as a procurer with technical expertise to make sure risk isn't 
being introduced at the point of manufacturing [inaudible] how 
you set up the maintenance so I don't want----
    Miss Rice. Do you set up those requirements or at least the 
laundry list of things that States and municipalities should 
look at. How many States adhere to them?
    Mr. Kolasky. So, I mean, we are still in the process of 
working with the Transit Authorities. We had a conversation on 
Friday where we shared some intelligence information around 
that to help make decisions. Right now, I think there's an 
opportunity for companies to put greater requirements into 
procurement language, that is something that the TSA and us 
will be working with the industry on.
    Miss Rice. So what would be the pushback against adhering 
to your guidelines?
    Mr. Kolasky. I think when you talk to chief operating 
officers, security officers, they want to do that, it is 
pressures that they get from other pressures in----
    Miss Rice. With costs?
    Mr. Kolasky. Yes. So you know, we understand that these 
decisions are trade-offs. We want to be in the side of pushing 
hard for security, recognizing that there are other pressures, 
the business in the Transit Authority space.
    Miss Rice. Whether it is interference in our election 
process which is well-documented. I mean, we have so many 
vulnerabilities across so many fundamental infrastructures in 
this country that we have to have a serious conversation about 
this and I just think that if you are going to set up 
guidelines, we have to try to understand why States are not 
going to adopt them and abide by them, if you are the agency 
from whom they are supposed to be getting this?
    Mr. Kolasky. Sure there is good procurement in there.
    We agree you know, we will set the guidelines, we will help 
them do that. When security-based procurement decisions or 
informed procurement decisions are not happening, that is where 
the Executive branch and Legislative branch should have a 
conversation about what are the limitations for that happening.
    I don't know, I don't want vulnerabilities to turn into 
risk, they are vulnerabilities as you said but let us really 
take a risk-based approach to where the priority should before 
activity.
    Miss Rice. When you come up with those guidelines, what 
data are you using to kind-of push that information out, what 
are you basing your concerns on in terms of the supply chain, 
the procurement process?
    Mr. Kolasky. Based on, first of all, seeing systems, so 
where we see vulnerabilities let us stick with elections 
perception, we have gone out and we have worked with States and 
counties to look at their election systems, see some common 
vulnerabilities, we do that.
    Also working with the vendors in areas to understand you 
know, areas where additional guidelines would help their own 
security side and taking advice through these protected 
conversations, through the Critical Infrastructure Partnership 
Advisory Council structure, we are hearing me, as somebody who 
wants to make a security decision, do not feel like I have all 
the information I need to make a security decision. So it is 
these conversations that help us.
    Miss Rice. Do you have anything that you want to add?
    OK.
    Thank you. I yield back.
    Mr. Correa. Thank you, Miss Rice.
    I will call in the gentleman from Rhode Island, Mr. 
Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to welcome our witnesses here today and thank you 
for your testimony.
    Before I begin, I just want to mention I concur with 
Chairman Thompson [inaudible] keep the pipeline, cybersecurity 
in the realm of TSA and not see it shipped over to DOE so I 
think that is an important point to make and I am glad that it 
is been raised here today.
    Obviously with all this and I think this hearing is 
essential to focus on transportation security especially to 
cybersecurity, these are the things that keep me up late at 
night you know, as you know, where is the most damage that can 
be done is in the area of critical infrastructure, in a number 
of fields and so one of the aspects I want to focus on today is 
on pipeline security and obviously you need the right policies 
and procedures and plans put in place, you need the right 
people with the right expertise.
    So, Ms. Proctor, let me start with you, December 2018 GAO 
report indicated that staffing in the Pipeline Security 
Division was a major challenge with a number of empties ranging 
from 14 all the way down to 1, across several fiscal years. 
What is the current staffing level of the Pipeline Security 
Division?
    Ms. Proctor. Today the current staffing level is 5 but I 
think it is important to say that with the realignment that has 
been directed by the administrator, we will be shifting into 
the Security Operations organization where we will have the 
benefit of the additional Transportation Security Inspectors in 
the field. You know, there are 200-plus of them that will serve 
all of surface transportation so our Pipeline Section will be 
much larger, we will draw from that pool of Transportation 
Security Inspectors to provide the training and the experience 
to put them in the Pipeline Section.
    Mr. Langevin. How many do you estimate will be in and 
specifically dedicated to pipeline security, or are you talking 
about, they are going to be leveraged across all those fields 
and from time to time they will rotate into the pipeline 
security, I am not clear on your answer?
    Ms. Proctor. Well, we think the Pipeline Section is going 
to require specialized training so we are going to put those 
people in there, provide the training and make sure that they 
are qualified to go out and do those assessments.
    We have not arrived at a final number yet, we are still 
working on some of the staffing issues or the shifting of 
personnel because it will serve all of our surface 
transportation partners in a way that is going to allow us to 
put more people in the field working directly with our surface 
transportation partners.
    Mr. Langevin. So of the 5 that you mentioned, those staff, 
how many have expertise in cybersecurity specific?
    Ms. Proctor. I am sorry we have none that have specific 
cybersecurity expertise. They do have pipeline expertise but 
not cyber expertise.
    Mr. Langevin. I find that a troubling answer but let me ask 
you, across all TSA services, service transportation of course, 
how many specialize in cybersecurity?
    Ms. Proctor. TSA does not have cybersecurity specialists. 
We rely on our colleagues at CISA for cyber expertise. I mean, 
that is a specialized field so we do rely on the DHS experts to 
provide that input and they have, we work directly with them 
when we were developing the Pipeline Security Guidelines, and 
got input from them to develop the current Pipeline Security 
Guidelines that have a cybersecurity section in them.
    Mr. Langevin. OK. So we will stay on the topic of pipeline 
security, approximately how many Critical Pipeline Systems are 
there again in the United States? You maybe talked about this 
earlier on, but----
    Ms. Proctor. That number varies depending on mergers and 
acquisitions, the number we work with is somewhere around a 
120.
    Mr. Langevin. OK so I [inaudible] at end of the year, I 
mean, in your view given the number of pipelines that we are 
talking about, is that adequate? Because it does not seem so to 
me.
    Ms. Proctor. I don't want to suggest that those are all of 
the pipeline assessments that we do so we still do critical 
facilities, security reviews and those are separate from the 10 
comprehensive cyber assessments that we are doing with CISA so 
we will continue to do those critical facilities security 
reviews. We completed 62 of those last year, even given the 
resources that we are working with now, but the 10 that we are 
referring to are going to participate in the Comprehensive 
Cyber Security Assessments that we are doing with CISA.
    Mr. Langevin. OK, before my time runs out, I want to ask 
you, Ms. Proctor, again the TSA Cybersecurity Roadmap provides 
for the development of an implementation plan to see it put 
into practice so had the actual implementation plan then 
developed?
    Ms. Proctor. We are in the process of developing that plan 
now. You know, we recognize the priorities in the cybersecurity 
plan and the value that it is going to bring to us in surface 
transportation. That plan is relatively new but we are 
reviewing that plan now to determine how we can implement that 
in surface transportation.
    Mr. Langevin. When do you think the plan will actually be 
finalized and is Congress going to be provided a copy of that? 
Because we would like a copy.
    Ms. Proctor. We would be happy to provide a copy of that 
finalized plan and I can certainly provide you an update on 
when--when we believe that is going to be finalized. As 
indicated, we are working through a number of requirements 
right now including the GAO requirements so we are working on 
all of those concurrently.
    Mr. Langevin. All right. Before my time runs out, I just 
want to ask this though, how do you expect the [inaudible] with 
the roll-out of the Roadmap and what additional resources, if 
any, are required to carry out the new plan once it is 
finalized?
    Ms. Proctor. The Cybersecurity Roadmap is going to require 
more coordination with CISA and we will have to determine the 
resources based on how we see that plan rolling out and how we 
see it being implemented across all of the surface 
transportation modes, but we have been working very closely 
together, so those are some things that we are going to have to 
continue to work and to ensure that we can carry out the 
administrator's intent on that plan.
    Mr. Langevin. But the resources are going to be factored 
in, and actually as the plan is finalized you are working 
through those additional resource requests now as well?
    Ms. Proctor. I am sorry, I didn't----
    Mr. Langevin. You are planning for additional resource 
requests once the plan is finalized, is what I am hearing you 
saying, correct?
    Ms. Proctor. Yes sir.
    Mr. Langevin. OK.
    Thank you very much.
    I will yield back.
    Mr. Correa. Thank you, Mr. Langevin.
    Now would like to call the gentlewoman from New Jersey, 
Mrs. Watson Coleman, for 5 minutes of discussion.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Thank you very much for your testimony. What is the 
greatest threat from a cybersecurity attack on the pipeline? Is 
it that it would cut the flow of the natural gas or is it that 
it would blow up, what is it?
    Ms. Proctor. So we recognize that the threats to pipeline 
from a cyber perspective do exist. Most of our significant 
pipelines are controlled to some extent by computer systems 
that manipulate valves and switches and controls----
    Mrs. Watson Coleman. Right.
    Ms. Proctor. So that impact would more likely affect the 
operation of the system. We would assume that it would affect 
more the operation of the system, the flow perhaps of the 
commodity.
    Mrs. Watson Coleman. Is there any other kind of threat that 
could result in either a leakage or an explosion that could be 
triggered by some nefarious actors?
    Mr. Kolasky. So I think we would like to have a follow-up 
conversation with you about threats where we can be more 
specific in a different setting. I don't mean to put you off--
--
    Mrs. Watson Coleman. OK.
    Mr. Kolasky. But I think that is more appropriate.
    Mrs. Watson Coleman. Thank you, because I am concerned. Do 
you work with FERC at all?
    Ms. Proctor. Yes ma'am, we do.
    Mrs. Watson Coleman. Because in New Jersey, in my district, 
there's a PennEast pipeline and I visited a home and the 
pipeline is going through that person's yard and as close as 
you are to me, is as close to the pipeline is to the woman's 
bedroom and so things like that concern me about the siting of 
these pipelines but in addition FERC hasn't had the 
responsibility, the requirement of saying whether the pipelines 
are in the vicinity and that could be somehow accessed so that 
we don't have so many pipelines, we just have the efficiency 
that we need and you don't deal with that issue with FERC at 
all in terms of siting, right?
    Ms. Proctor. No ma'am. We don't deal with the issue of 
siting at all. We do work closely with FERC and we have 
conducted Cyber Architecture Assessments with FERC so----
    Mrs. Watson Coleman. But that is not proximity. That is not 
location, that is infrastructure, right?
    Ms. Proctor. Correct.
    Mrs. Watson Coleman. If we have to have this conversation 
in another setting but we keep talking about the 
vulnerabilities that exists either in supply chain or in 
cybersecurity or in any way impacting the safety and security 
of any rail transportation, any pipelines and we say that we 
are doing things to advise our clients, whomever of these 
vulnerabilities.
    Can you tell me in this setting: (A) How we identify these 
vulnerabilities, and (B) how does the procurer ensure that 
there's language or whatever that protects that item that they 
are purchasing that is being built by China or anybody else? Is 
that something that we can discuss here?
    Mr. Kolasky. Yes. To some extent. I mean, first of all, I 
want to reinforce that most of these worst-case scenarios, 
there is a lot of fail-safes, there's layered defenses broken, 
built in here and you know, one of our overall strategies is to 
get better, better, better to make this stuff, the worst case 
that you are imagining, incredibly complex and only 
accomplishable by having physical access or doing things that 
are likely to be picked up by a Layered Defense System.
    So first and foremost strategy, it is better understanding 
what is already put in place and putting in places to share 
information as quickly as possible. When you make something 
really complex just like with a terrorist attack, you are more 
likely to see the plotting that is going on there----
    Mrs. Watson Coleman. Yes.
    Mr. Kolasky. We have come a long way in that direction. Our 
adversaries might continue to get better but you know----
    Mrs. Watson Coleman. Yes.
    Mr. Kolasky. By making things complex is a good risk 
management strategy.
    Mrs. Watson Coleman. But I also want to know that when you 
are purchasing rail cars, what is it that you tell the agency 
that is advertising, these specific things are how you mitigate 
the possible compromising of the safety and security of your 
car or whatever?
    Mr. Kolasky. Sure. So----
    Mrs. Watson Coleman. And----
    Mr. Kolasky. At the basic level we give them an overview of 
business practices of companies and links to Chinese 
intelligence doctrine, things that are available to understand 
that there may be----
    Mrs. Watson Coleman. I am going to assume----
    Mr. Kolasky. Risks introduce into the system and then we 
talk through what good procurement strategies are.
    Mrs. Watson Coleman. I want to assume, worst-case scenario, 
that we are purchasing cars from a company that means us no 
good. I want to know specifically how do we protect against 
that--what do we look for specifically to make sure that 
whatever thing is that might compromise the safety of that car 
and its passengers. How do we see it, how do we know it, how do 
we look for it? [inaudible]
    Mr. Kolasky. It leads to a follow-on discussion.
    The last thing I would say is that one of the things we are 
bringing in from a procurement perspective is the Federal 
Government as a whole has experience in procuring things that 
are really, really important to us and need to be secure and so 
part of what we can do with DHS working with some of our folks 
who do even bigger procurement is bring some of those 
practices, share that with industry around so the relationship 
with us and DOD and that sort of--in the testing that goes on 
in National Labs, that stuff's really important to get to----
    Mrs. Watson Coleman. OK.
    Mr. Kolasky. The level of fidelity you want.
    Mrs. Watson Coleman. So I thank you.
    My time is up and I just want to say, Mr. Chairman, I 
somehow would like to have a discussion in another environment 
as to exactly what these things are.
    Mr. Correa. I would love to do that, if we can I will.
    Mrs. Watson Coleman. Thank you very much.
    Mr. Correa. I will talk to the staff and, Mrs. Watson 
Coleman, let us see if we can do that.
    Thank you very much and recognize Ms. Slotkin for 5 minutes 
of questions. Thank you.
    Ms. Slotkin. Yes. Hi, sorry to be late. I apologize. I am 
happy to be the only one at this giant table down here.
    I apologize if this is slightly repetitive. I like the--
some of my other fellow Congress men and women, have pipelines 
going through my district, some of them extremely close to the 
homes, many of them the route had been changed without the 
citizens' awareness and there's a lot of citizens who are 
concerned about their safety, as we all would be.
    So can you just walk me through in sort-of clear terms No. 
1, what you have done to prevent cyber attack and then No. 2, 
if there's a specific threat or a risk; I am from the 
intelligence community, former CIA officer and was definitely 
aware that there was plenty of time, there were Classified 
information, threats, concerns, new techniques, that were 
Classified so we couldn't actually communicate with local 
businesses, with local communities, local law enforcement, even 
on the real nature of the threat so what have--what are we 
sort-of doing to protect ourselves and then tell me about your 
modus operandi on presenting information down to unclassified 
users?
    Ms. Proctor. So with regard to the threat and this goes 
back to our information sharing. Two weeks ago, I believe we 
had a Classified briefing with members of the industry. It was 
a Top-Secret Classified briefing to talk about the threat. As a 
matter of fact, tomorrow we have another meeting with another 
Classified briefing with industry so we have found ways with 
our intelligence colleagues of providing the necessary 
information that our industry partners need in order to protect 
their industry from cyber threats so from the intelligence 
perspective we have been able to manage that with our 
intelligence partners.
    I don't believe that there has been an unresolved issue 
with the intelligence that we are providing. We are providing 
everything that we can provide in the appropriate atmosphere, 
with people who have the appropriate clearances so in terms of 
the information I believe that we are getting that out to the 
right people.
    Mr. Kolasky. And----
    Ms. Proctor. On the--cyber side, I am going to let----
    Mr. Kolasky. You referenced community-level law 
enforcement, and this is where the fusion centers, the DHS, 
sponsors, come in very handy, there are somewhere around 85 
around the country and both with industry but more particularly 
with law enforcement and people who have been close to 
community-level decisions [inaudible] teleconferences and 
things like that.
    Then implied in your question, obviously is not everyone is 
going to have a clearance no matter how good we get at doing 
that so you know, we want to push, giving more out, the 
unclassified assessment, as you probably can guess what was in 
the Worldwide Threat Assessment that Director Coats talked 
about, that takes a while to get that statement to be made but 
that statement becomes important because it lights a fire on 
the importance of this issue and we have been following up with 
industry both in the Classified and unclassified community 
space with that.
    Ms. Slotkin. So related to that, if there was an incident 
and because of declassification or problems with sharing, that 
information did not get to the company, who is the senior 
accountable official, who would be responsible for that mishap, 
would it happen?
    Mr. Kolasky. We within CISA have the ability to give 
private-sector clearances out so we will facilitate private-
sector members getting access to information, depending on the 
nature of the information you are talking about it is on us as 
a Government, who have that information to give as quickly as 
possible to the cleared community. I am not going to speculate 
on the exact hypothetical--it is our job to make sure we have 
opened up the channels to give Classified information.
    We in other parts of the Government also have 1-day reading 
authorities where if you don't have a clearance but you need to 
have this information and so you know, I think we all feel 
obligated to make sure that information gets in the hands of 
somebody who could do something as soon as possible once we 
know that is credible information.
    Ms. Slotkin. OK. I would just say, again CIA and FBI 
weren't communicating particularly well during 9/11. There has 
to be accountability if there's mistakes; I am not saying 
anyone's you know, God forbid, planning for mistake but it is 
nice to know that you know, who is responsible for making sure 
we pushed down this information to industry.
    But I will yield back the rest of my time.
    Mr. Correa. Thank our witnesses for your comments.
    Now if I may, I would like to take a 5-minute recess and 
then come back and start with our second panel.
    Members please try to be back in 5 minutes. Thank you very 
much.
    [Recess.]
    Mr. Correa. The committee will now come to order.
    We will start with our second panel.
    Our first witness is Mr. James Lewis, serves as senior vice 
president and the director of the Technology and Public Policy 
Program at the Center of Strategic International Studies.
    Next we will have Ms. Rebecca Gagliostro, my apologies, who 
is the director of security, reliability, and resilience at the 
Interstate Natural Gas Association of America which is 
comprised of 27 members representing a vast majority of 
interstate natural gas transmission pipeline companies.
    Next, we will have Mr. Erik Olson, who is a vice president 
of the Rail Security Alliance, which is a coalition of North 
American freight, rail car manufacturers, suppliers, unions, 
and steel interest.
    Finally, will have Mr. John Hultquist, who serves as 
director of intelligence and analysis at FireEye. He has over 
10 years of experience, covering cyber espionage, hacktivism, 
and has worked in senior intelligence analyst positions in the 
Department of State.
    Without objection the witnesses' full statements will be 
inserted to the record.
    I will ask now each witness to summarize their statements 
for 5 minutes, beginning with Mr. Lewis.
    Thank you, welcome sir.

STATEMENT OF JAMES A. LEWIS, SENIOR VICE PRESIDENT, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Lewis. Thank you. I thank the committee for the 
opportunity to testify.
    We have entered an era of connected devices sometimes 
called the internet of things that offers real economic benefit 
but comes with increased risk to homeland security and much of 
this risk comes from the global supply chain. Most 
infrastructure and transportation systems as you have heard are 
connected to the internet in some way and depend on computers 
for their operation. This includes electrical power systems, 
pipelines, telecommunications and increasingly vehicles which 
continuously connect back to their manufacturer wherever that 
manufacturer is located and these connections provide 
opportunities for espionage and service disruption.
    As the committees have heard for many years, the state of 
cybersecurity remains poor. Most networks can be hacked, cyber 
crime continues to grow, and cyber attack is an essential part 
of state conflict.
    Our task is to mitigate risk. One way to do this is to ask 
how a device connects to the internet, what information it 
transmits, and how much transparency and control an operator 
has over this data and connection.
    Another way is to use three metrics: The value of data 
collected; the critical [inaudible] variable data; perform 
critical functions or whose disruptions could produce mass 
effect, need to be held to higher standards.
    Currently the internet of things is probably more 
vulnerable to disruption than the regular good old internet. 
For critical infrastructure we can ask how we would continue to 
operate in the event of a malicious incident and to what degree 
our control over these infrastructures are shared with a 
foreign manufacturer.
    Products from China require special attention. The 
combination of increased Chinese espionage, new national 
intelligence law on China, pervasive surveillance, and 
heightened military tensions have led to a dangerous situation 
but the United States and China share a deeply integrated 
industrial base, disentangling this would be costly, although 
some now talk of a divorce. China is not the only country that 
could exploit cyber vulnerabilities and critical 
infrastructure. Iran and Russia have probed pipelines and other 
infrastructures, including electrical power.
    There are several steps we can take to reduce risk. The 
most obvious is to improve network and device security. DHS's 
Cyber and Infrastructure Security Agency, CISA, should be the 
center of this effort.
    The development of security standards is essential. The 
NIST Cybersecurity Framework is a strong start but it needs to 
be amplified and expanded for specific technologies. Any 
defensive measure must accept that we cannot keep a determined 
opponent out of our networks. This means that we must also 
consider measures to increase resiliency and allow for 
continued operation, integrated environments; this is the goal 
that DOD has. Better security requires oversight. This is 
clearly a task for the committee but also for CISA.
    Finally, a defensive approach by itself is inadequate. The 
United States needs to develop credible threats to deter 
foreign attackers and persuade them that interference in 
critical infrastructure comes with the unacceptable risk of 
retaliation. We do not have this now. That would be a useful 
thing to do.
    We haven't talked about the security premium which is what 
many of us call it, it has come up several times [inaudible] in 
part because it is subsidized by the government. There might be 
a Chinese intent, it is worth looking at, this subsidy but it 
means for companies--and we see this particularly with Huawei--
they must choose between buying cheap good equipment or more 
expensive equipment that is secure, and that is a difficult 
choice. I am not sure everyone will always come out in the same 
place.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    [The prepared statement of Mr. Lewis follows:]
                  Prepared Statement of James A. Lewis
                           February 26, 2019
    I would like to thank the committee for the opportunity to testify. 
My testimony will discuss the risks to homeland security from the use 
of Chinese technology and equipment.
    Chinese companies face a serious branding problem in many 
countries. There is a level of distrust that has been created in good 
measure by Chinese government policies. The most prominent of these 
policies are China's aggressive mercantilism, its disregard for 
international law, its massive espionage campaign, and, for the United 
States, its announced intention to displace America and become the most 
powerful country in the world, reshaping international rules and 
practices to better fit the interest of China's rulers.
    Espionage has been a part of the of the Sino-American relationship 
since China's opening to the West in 1979. It is worth remembering that 
at this time, the United States and China shared a common enemy--the 
Soviet Union. This created incentives for cooperation that have long 
vanished. Chinese espionage initially focused on repairing the 
disastrous effects of Maoist policies on China's economic and political 
development. This meant the illicit or coercive acquisition of Western 
technology. As China's cyber capabilities improved, beginning in the 
late 1990's, some PLA units turned to hacking as a way to supplement 
their incomes, moonlighting by stealing Western intellectual property 
and then selling it to Chinese companies.
    The illicit acquisition of technology is still a hallmark of 
Chinese espionage activity, but there have been significant changes 
since President Xi Jinping came to power in 2013. One of the first 
things Xi did, reportedly, is order an inventory of Chinese cyber 
espionage activities. He found that many of these had not been ordered 
by Beijing, that Beijing did not have full control over tasking and 
assets, and some operations were for private interest and did not meet 
China's strategic requirements.
    Xi changed this. The Chinese military has been reorganized as part 
of a larger effort to modernize the PLA. Xi's anti-corruption campaign 
greatly reduced the ability of PLA units to ``moonlight.'' Chinese 
intelligence collection is better organized, more focused on strategic 
priorities, and, some would say, better in performing its missions. 
This comes at a time when, according to the U.S. intelligence 
community, Chinese espionage has reached unprecedent levels. Today, 
these efforts focus on the acquisition of advanced military and 
commercial technologies, since China still lags the United States in 
technology, as well as military and government targets.
    The United States and China reached an agreement in 2015 to end 
commercial cyber espionage, but it is generally believed that this 
agreement has broken down in the last year. At the risk of sounding 
overly dramatic, some would describe this situation as an undeclared 
espionage war between China and the United States. In fact, this is not 
a war, but a very intense contest where the United States is largely on 
the defensive. Our allies also face a similar problem with Chinese 
efforts in Australia, Japan, Germany, the United Kingdom, Canada, and 
other advanced economies.
    These activities create distrust, and a more specific ground for 
distrust is China's 2017 National Intelligence Law. For some years, the 
United States had advised China to move away from an informal, ad hoc 
system of rules and put in place a formal legal structure based on 
laws. The Chinese took our advice and one result is that long-standing 
Chinese policies and practices have been codified into the 2017 
Intelligence Law. The most important part of that law for today's 
hearing is that it creates a legal obligation for Chinese companies to 
cooperate fully with intelligence agencies upon request. There are no 
grounds for appeal or an ability to refuse such requests.
    This means that a Chinese company could be completely innocent of 
any wrongdoing, its products harmless, but a decision by the Chinese 
government could change that in an instant. In the context of an 
increasingly aggressive global espionage campaign, often conducted 
using cyber techniques, there are reasonable grounds for the distrust 
of Chinese products. The first question to ask is not whether you trust 
a Chinese company, but whether you trust the Chinese government.
    Concerns over the Intelligence Law have become so significant, in 
part because of the implications of using Huawei telecommunications 
equipment, that China's official news agency felt obliged last week to 
put out a press release calling for a comprehensive and accurate 
translation. China's Foreign Ministry pointed out that while Article 7 
of the law stipulates the obligation for Chinese companies and 
individuals to ``support, assist, and cooperate'' with the country's 
intelligence service, Article 8 stipulates that China's intelligence 
service should carry out its work according to law, protect human 
rights, and safeguard the legal rights and interests of individuals and 
organizations. Unfortunately, this promise is undercut by China's 
recent behavior in regard to human rights and in the protection (better 
expressed as the absence of protections) for the intellectual property 
of foreign companies.
    We should note that China's government expresses similar concerns 
over their reliance on Western technology, in part because they assume 
the relationship between Western companies and government is the same 
as the relationship between Chinese companies and the government. This 
official distrust of Western products is one reason why Beijing is 
spending billions of dollars to develop national sources of supply for 
many technologies. These subsidies also provide commercial benefit, in 
building national champions in Chinese industry and in eroding Western 
companies' market position.
    China also leads the world in building a national system of 
pervasive domestic surveillance. Communications and social media are 
monitored, and an array of sensors monitor and record activities in 
urban areas. This sensor data is correlated with information held by 
the government on Chinese residents' behavior and communications. This 
pervasive surveillance is not popular among many Chinese, but it is 
increasingly difficult to escape. One concern is that China will to 
some degree extend this pervasive surveillance to countries and persons 
of interest outside of China or extend its extensive cyber espionage 
campaign to include coercive actions, like disrupting critical 
services. This is not something China would do lightly, but the risk 
cannot be dismissed.
    The combination of increased espionage, new legal obligations, 
pervasive surveillance, and heightened military tensions make for an 
uncomfortable and potentially dangerous situation, with implications 
for U.S. security. The United States and China share a deeply 
integrated industrial base, constructed during the time when we assumed 
that China was moving in the direction of becoming a market economy and 
a security partner. Disentangling this deeply integrated supply chain 
would be costly and damaging to both countries, but some in America now 
talk about a ``divorce'' while China is spending heavily to reduce its 
reliance on the United States.
    Beyond the espionage risk, there is potential risk for critical 
infrastructure that is growing. As more devices become connected to the 
internet and reliant on software, the opportunities for disruption will 
grow. This is not specifically a China problem, but a change in the 
technological environment as millions of devices connect to the 
internet in ways that China (or other malicious actors) could exploit 
for coercive purposes.
    As the committee has heard for many years, the state of 
cybersecurity remains poor and almost any network or device can be 
hacked with enough persistence. Cyber crime continues to grow, and 
cyber tools have become an essential part of state conflict. If it is 
any consolation, China's cybersecurity is worse than ours, if only 
because of their frequent use of pirated software. Improving 
cybersecurity should be a potential area for cooperation between the 
two countries, but the current state of relations does not permit that.
    An environment of connected devices, often called the internet of 
things, is formed by devices that connect to the global internet, 
usually without human intervention. We all have heard of smart cars but 
many large systems in infrastructure and transportation also rely on 
computers and connectivity. This environment will provide real economic 
opportunities and benefits, but it also comes with an increase in risk. 
Our task should be to estimate this risk and then develop strategies to 
mitigate it. Different technologies and different companies create 
different levels of risk, and there are several ways to assess this.
    One way to scope risk is to ask how a device connects to the 
internet, what on-board sensors it has, what information it collects 
and transmits, and how much transparency, insight, and control an 
operator has over this data and connection. Many large capital goods, 
such as power technologies, pipelines, telecommunications and ships, 
are continuously connected over the internet to their manufacturer, to 
allow for status reports, maintenance scheduling, and for the updating 
of software. This continuous connection provides an opportunity to 
collect information and to disrupt services. Instead of an update, a 
command could be sent to turn off or to reduce speed.
    We have seen several examples of Chinese devices that report home, 
from drones to surveillance cameras, with the concern that under the 
new intelligence law, the Chinese government could compel the provision 
of the data collected by these technologies. This kind of monitoring 
and collection has been a standard practice for intelligence agencies 
that will certainly extend to the internet of things, and the risks of 
connected devices is compounded when their home is in a hostile foreign 
power.
    We could scope risk by measuring the cybersecurity status of 
connected devices. The National Institute of Standards and Technology 
(NIST) is developing, in partnership with industry, standards for the 
security of IOT devices. But this is still at a relatively early stage. 
In general, the internet of things will be no more secure than the 
existing internet and may be more vulnerable, since many IOT devices 
will use simple computers with limited functionality.
    We can also assess risk by using three metrics--the value of the 
data accessible through or collected by the IOT device, the criticality 
of a function the connected device provides, and scalability of 
failure. Devices that create or collect valuable data, perform crucial 
functions, or that can produce mass effect, need to be held to higher 
standards and face greater scrutiny.
    For critical infrastructure, we need to ask the same questions 
about using Chinese products that we would ask for any critical 
infrastructure protection policy: How sensitive are the operations and 
the data associated with or accessible through the infrastructure, what 
would happen if the infrastructure was disrupted by an opponent, how 
would we continue to operate and then recover in the event of a 
malicious incident, and for foreign products, and to what degree is 
control or access shared with the foreign manufacturer?
    The type of data collected and transmitted is a crucial element of 
a risk assessment. Intelligence analysis data is driven by access to 
large amounts of data and the ability to correlate it with other data. 
Data analytics provides new intelligence insights. A well-known example 
is the hack attributed to China of the Office of Personnel Management 
(OPM) and the theft of personal information. It is likely that OPM was 
one of a series of related hacks, of insurance companies, airlines, and 
travel agencies, that provided additional data that could be used to 
gain insight into America, personnel and practices. This means that 
even seemingly insignificant data, if correlated with other 
information, may provide influence value. The more ``granular'' the 
data, and whether it refers to specific individuals, the greater its 
value. Less granular data, such as how many people are sitting on a 
train or at which stop they exit, may not pose much risk.
    Managing our new competition with China will be difficult given the 
close interconnection between the U.S. and Chinese economies. This is a 
30-year commercial and technological partnership not easily dismantled 
by either side. Given the deep interconnections that have grown between 
the Chinese economy and the rest of the world, a bifurcation similar to 
that seen during the Cold War is not possible, and it is not now in our 
interest. A greater degree of separation between the two economies is 
necessary but must be carefully developed for specific technologies and 
based on a judgment on the risk that their use could provide China with 
an intelligence, military, or unfair commercial advantage.
    These risks are manageable, and we have to contrast them to the 
risk to the America economy from a violent disruption of trade with 
China. Generally speaking, a complete divorce is not in our interest; 
and it is certainly not in China's interest. There are specific 
technologies and circumstances that require greater scrutiny and 
countermeasures, but this does not apply across the board (at least at 
this time). Working with our allies, we can modify China's behavior to 
make this relationship more stable and less risky. We have done so in 
the past, but this will be a process that will take years to complete, 
and in the interim, there are steps we must take to reduce the risk of 
Chinese interference and espionage.
    The most obvious is continued work to improve network and device 
security. This will require some measure of regulatory action and close 
partnership with the affected industries and operators. One size does 
not fit all when it comes to regulation, so the potential risk of IOT 
and Chinese technology must be managed using the sector-specific model 
developed in the previous administration, and partnerships between 
companies, agencies with oversight, and DHS's new Cybersecurity and 
Infrastructure Security Agency (CISA) should be the core of this 
effort.
    The development of security standards is a necessary complement to 
any regulation or voluntary action. The NIST Cybersecurity Framework is 
a good starting point for this but must be extended and modified for 
different kinds of transportation systems. CISA's Transportation 
Systems Sector Cybersecurity Framework Implementation Guide, published 
in June 2015, provides guidance to owners and operators on how to 
assess and implement cybersecurity standards.
    All of these measures--voluntary action, regulation, and 
standards--must be predicated on the knowledge that we cannot keep 
opponents out of our networks and devices. We can make it harder for 
them but not impossible. This means that measures to increase 
resiliency, to allow for some level of continued operation in degraded 
conditions is essential. This adds expense to critical infrastructure, 
of course, and one part of any plan is to ask how this additional 
burden will be funded and whether the increase in risk is outweighed by 
the potential savings--we should not automatically assume that the mere 
existence of risk cancels out financial benefits.
    All of these steps require oversight to assess risk and 
improvement. This is clearly a task for Congress and this committee, 
but also for the responsible agencies, industry bodies, and, in 
particular, for CISA. The key question for assessment is whether the 
use of the Chinese technology increases the risk of disruption or 
espionage, and the answer to this will depend in good measure on how 
the Chinese products connect to the internet.
    Finally, a purely defensive approach will be inadequate. The United 
States needs to develop and articulate credible counterthreats to 
dissuade and deter foreign attackers. This may require more than 
sanctions and indictments. Although they are useful and have effect 
over the long term, they may need to be reinforced other punitive 
measures, part of a larger strategy on how to impose consequences and 
change opponent thinking. Given the level of vulnerability and the 
potential increase in risk from both the acquisition of foreign 
technology and the digitizing of critical services, we must persuade 
opponents that any interference will come with unacceptable risk or 
retaliation by the United States.
    There are trade issues that I have not touched upon, such as the 
Chinese practice of building national champions through government 
subsidies and, in some cases, industrial espionage. China also uses 
non-tariff barriers and other protectionist mechanisms to hobble or 
block competition from foreign firms in China. These Chinese practices 
harm our National interests and should be opposed as part of a larger 
effort to change China's behavior and move it in the direction of 
reciprocity.
    I thank the committee for the opportunity to testify and look 
forward to any questions.

    Mr. Correa. Thank you, Mr. Lewis.
    Now I would like to recognize, Ms. Gagliostro, to summarize 
her statements in 5 minutes.

     STATEMENT OF REBECCA GAGLIOSTRO, DIRECTOR, SECURITY, 
RELIABILITY, AND RESILIENCE, INTERSTATE NATURAL GAS ASSOCIATION 
                           OF AMERICA

    Ms. Gagliostro. Thank you.
    I am delighted to be here today to share our thoughts on 
cybersecurity in the pipeline industry. My name is Rebecca 
Gagliostro, director of security, reliability, and resilience 
at the Interstate Natural Gas Association of America.
    INGAA is a trade association that advocates regulatory and 
legislative positions of importance to the Interstate Natural 
Gas Pipeline Industry. Our 28-member companies operate 
approximately 200,000 miles of interstate natural gas pipelines 
that are analogous to the interstate highway system. Like the 
highways that are the arteries for so much of our Nation's 
commerce, interstate natural gas pipelines are the 
indispensable link between U.S. natural gas producers and 
consumers.
    In my role at INGAA, I work directly with our members to 
ensure that our pipeline infrastructure remains resilient, 
safe, and secure. Cybersecurity is a priority for the Natural 
Gas Pipeline Industry. INGAA member companies work worked 
diligently to secure our Nation's critical gas transmission 
infrastructure from both cyber and physical security threats. 
Cybersecurity has been identified as the top operational risk 
by the executive leadership of our member companies and we take 
the management of this risk very seriously.
    Last year in recognition of this priority, INGAA's board of 
directors set forward with its commitment the Pipeline Security 
Statement. This Statement enumerates specific actions that all 
of our member companies are taking as part of their security 
program. The Statement emphasizes among other things, our 
commitments to following the Transportation Security 
Administration's Pipeline Security Guidelines.
    Industry security efforts seeks to reduce the risk posed by 
successful attack targeting our infrastructure. A foundational 
element of a well-informed risk management program is 
comprehensive information sharing. This is the key point that I 
would like to emphasize. Real-time actionable information is 
vital to ensuring our pipeline operators are equipped with the 
latest intelligence on threats.
    Information sharing is occurring today between INGAA member 
companies and other industry stakeholders through the work of 
our Information Sharing and Analysis Centers also known as 
ISACs, however this is not industry's responsibility alone. It 
is imperative that we also have a cooperative working 
relationship with our Government partners to help facilitate 
information sharing.
    We would like to note that there is strong information 
sharing occurring today with our partners at TSA and the 
Department of Homeland Security and we would like to see this 
relationship continue.
    INGAA believes that TSA's Pipeline Security Program is 
making a difference as it continues to improve. We understand 
that TSA has accepted the Government Accountability Office's 
recommendations for improving the management of its Pipeline 
Security Program and it is now in the process of implementing 
changes in response to those recommendations. INGAA strongly 
believes that if followed these recommendations will help to 
make a stronger and more robust program.
    The increasing threat of nation-states cybersecurity 
attacks and interdependencies across our critical 
infrastructures means that we must work together across 
industry and Government to protect ourselves against threats. 
The work that TSA and the Department of Homeland Security are 
doing with the National Risk Management Center is a very 
positive step toward the end goal of protecting the Nation from 
cybersecurity threats.
    Threats to critical infrastructure cannot be evaluated in 
isolation; all critical infrastructures are being targeted, 
therefore we must identify the best ways to work together to 
protect our National security.
    In October, TSA and DHS announced their joint partnership 
in the Pipeline Cybersecurity Assessment Initiative which is 
working to conduct Comprehensive Cybersecurity Assessments to 
pipeline infrastructure. Assessments play a critical role in 
providing the assurance that these programs are working. TSA 
has already piloted one INGAA member assessment in 2018 and our 
members continue [inaudible] we believe that progress has been 
made in securing our pipeline infrastructure and we should 
continue to focus on improving TSA's Pipeline Security Program.
    The growing threat of nation-state cyber attacks requires a 
coordinated and comprehensive approach backed by strong 
information sharing across all critical infrastructures sectors 
and across all Federal agencies supporting National Security. 
TSA's on-going work with the National Risk Management Center is 
helping to bridge that gap.
    We urge Congress to support TSA's efforts to improve its 
program and provide the necessary guidance and funding for 
additional program-management staffing and cybersecurity 
expertise that can work alongside the National Risk Management 
Center and support the Pipeline Cybersecurity Assessment 
Initiative. We believe that this, in addition to the efforts 
that are already under way, will help to make TSA successful in 
its mission to protect the Nation's pipeline infrastructure. 
Thank you.
    [The prepared statement of Ms. Gagliostro follows:]
                Prepared Statement of Rebecca Gagliostro
                           February 26, 2019
    Good morning Chairmen Correa and Richmond, Ranking Members Lesko 
and Katko, and Members of the subcommittees. I am delighted to be here 
today to share our thoughts on cybersecurity in the pipeline industry. 
I am Rebecca Gagliostro, the director of security, reliability, and 
resilience at the Interstate Natural Gas Association of America 
(INGAA). INGAA is a trade association that advocates regulatory and 
legislative positions of importance to the interstate natural gas 
pipeline industry in the United States. INGAA's 28 members operate 
approximately 200,000 miles of interstate natural gas pipelines that 
are analogous to the interstate highway system. Like the highways that 
are the arteries for so much of our Nation's commerce, interstate 
natural gas pipelines are the indispensable link between U.S. natural 
gas producers and consumers. In my role at INGAA, I work directly with 
our members to ensure that our pipeline infrastructure remains 
resilient, safe, and secure.
Cybersecurity is a priority for the natural gas pipeline industry
    INGAA member companies work diligently to secure our Nation's 
critical gas transmission infrastructure from cyber and physical 
security threats. The boards of directors and executive leadership of 
our member companies have identified cybersecurity as a top operational 
risk and take the management of this risk very seriously. Last year, in 
recognition of this priority, INGAA's board of directors stepped 
forward with its Commitments to Pipeline Security\1\ statement, which 
enumerates specific actions that all of our member companies are taking 
to identify, protect, detect, respond to, and recover from security 
threats targeting our systems. In addition, the statement emphasizes 
our members' commitments to following the Transportation Security 
Administration's (TSA's) Pipeline Security Guidelines and the National 
Institute of Standards and Technology's (NIST's) Cybersecurity 
Framework, and to engaging in comprehensive information sharing across 
the industry and with our Federal partners. These are the foundations 
to building and maintaining strong pipeline security programs.
---------------------------------------------------------------------------
    \1\ INGAA Commitments to Pipeline Security, https://www.ingaa.org/
File.aspx?- id=34310&v=db10d1d2.
---------------------------------------------------------------------------
    INGAA's commitments provide a high-level roadmap of what our member 
companies are doing to secure our infrastructure, as appropriate for 
public dissemination. In practice, our members' security programs are 
far more extensive than the information that may be conveyed by these 
commitments. It is our firm belief that we must be continually vigilant 
and entirely committed to the on-going improvement of our security 
defenses because the adversaries seeking to harm infrastructure of all 
kinds, including natural gas pipelines, are nimble and the threats they 
pose are evolving.
Pipeline operators take a risk-management approach to addressing 
        security threats
    Industry security efforts seek to reduce the risk posed by a 
successful attack targeting our infrastructure. This risk-informed 
approach helps us prioritize our actions and allocate appropriate 
resources toward the highest priority. Pipeline operators utilize a 
variety of tools and resources, like the NIST Cybersecurity Framework 
and the TSA Pipeline Security Guidelines, to build well-rounded 
cybersecurity programs that effectively assess and manage the risks 
that we face. We recognize that cybersecurity risk management 
strategies must be comprehensive in nature and must implement measures 
to both reduce the likelihood of a successful attack and mitigate the 
impacts of a successful attack, should one occur. As such, pipeline 
operators assess their security programs using a variety of resources 
such as Federal assessment programs, self-assessments, peer reviews, 
and third-party vulnerability and penetration tests. Exercises and 
tabletops also play an important role in testing our security programs, 
sharing information with our peers about our security practices, and 
planning for how we will work across industry, interdependent sectors 
and with first responders during an incident.
    A foundational element of a well-informed risk management program 
is comprehensive information sharing. This is a key point that deserves 
emphasis. Real-time, actionable information is vital to ensuring 
pipeline operators are equipped with the latest intelligence on 
threats, including known tactics, techniques, and mitigative measures. 
This, in turn, enables operators to evaluate their risks and tailor an 
approach that best fits the needs of their individual systems and 
environments. Strong information sharing already occurs today between 
INGAA member companies and other industry stakeholders through the work 
of our information sharing and analysis centers (ISACs), including the 
Downstream Natural Gas (DNG) ISAC and the Oil and Natural Gas (ONG) 
ISAC. However, this cannot be industry's responsibility alone. It is 
imperative that we also have a cooperative relationship with our 
Government partners to facilitate rapid information sharing. It is 
worth emphasizing that the pipeline industry has a strong information-
sharing relationship with our partners at TSA and U.S. Department of 
Homeland Security (DHS). We would like to see this relationship of 
trust continue and develop, as we look toward these agencies to 
declassify threat intelligence and provide us with the timely, 
actionable information necessary to protect our systems and 
infrastructure.
The Transportation Security Administration pipeline security program is 
        improving
    The Aviation and Transportation Security Act (Pub. L. 107-71) 
(``ATSA'') vested the Transportation Security Administration with 
authority over pipeline security. Pursuant to this authority, TSA 
offers guidance on expected practices and procedures necessary to 
secure the Nation's critical pipeline infrastructure. TSA offers 
several programs, tools, and products to assist pipeline operators with 
protecting their infrastructure, including Critical Facility Security 
Reviews, Corporate Security Reviews, Pipeline Cybersecurity 
Assessments, Smart Practices, I-STEP, Security Awareness Training 
Videos, and the International Pipeline Security Forum.
    TSA acknowledges that there remains room for improvement in its 
pipeline security program. The agency has accepted the recommendations 
for improving the management of its pipeline security program that were 
made by the Government Accountability Office and is in the process of 
implementing them. INGAA strongly believes that if followed, these 
recommendations will help to make a stronger and more robust program.
    Following the tragic events of September 11, 2001, TSA's security 
program was rooted in the physical security threats targeting our 
critical infrastructure. As acknowledged in a recent statement by 
Director of National Intelligence Dan Coats, sophisticated nation-
state-backed cybersecurity capabilities present a real threat to our 
critical infrastructure. These threats have led to increased emphasis 
by TSA and our sector on protecting pipeline infrastructure from 
cybersecurity threats. It is important to stress that these threats are 
faced by all critical infrastructure and not just natural gas 
pipelines. The increasing interdependence across the segments of our 
Nation's critical infrastructure means that we must work together 
across industry and Government to protect ourselves against these 
threats.
    The work that TSA and DHS are doing through the National Risk 
Management Center (NRMC) is a very positive step toward the end goal of 
protecting the Nation from cybersecurity threats. These agencies are 
working together to understand how sophisticated, nation-state threat 
actors seek to identify ways to harm all U.S. critical infrastructure. 
We believe this approach is significant because these threats cannot be 
analyzed effectively in isolation. All critical infrastructure is being 
targeted; therefore, we must identify the best ways to work together to 
protect our National security.
    In October, these agencies announced the Pipeline Cybersecurity 
Assessment Initiative, which is working to conduct comprehensive 
cybersecurity assessments of natural gas infrastructure to better 
understand the unique risks faced by our infrastructure as well as to 
identify how best to protect it. In addition to having a recognized 
baseline of practices, assessments are critical to providing assurance 
that these programs are working. TSA has already piloted one INGAA 
member assessment in 2018, and INGAA members continue to volunteer to 
participate in these new assessments in 2019.
Next steps for building upon progress to secure pipeline infrastructure
    INGAA believes that progress has been made in securing our pipeline 
infrastructure and that the focus should be on continuing to improve 
TSA's pipeline security program. Threat actors regularly develop and 
refine their tactics, and we must do the same. The increased 
coordination between TSA and DHS's Cybersecurity and Infrastructure 
Security Agency (CISA) through the NRMC is an appropriate response to 
the enhanced need for cybersecurity expertise to support industry's 
efforts to protect our critical infrastructure against these growing 
threats. We understand TSA has embraced GAO's recommendations as a 
roadmap for improving its pipeline security program and is already 
taking steps to respond to them.
    INGAA and its member companies will continue to support TSA's 
efforts. This includes volunteering for assessments, sharing 
information about indicators of compromise and about how member 
companies are securing their infrastructure, and participating in 
cross-sector exercises so we can better determine how the different 
segments of critical infrastructure must work together.
    The growing threat of nation-state-backed attacks requires a 
coordinated and comprehensive approach across all critical 
infrastructure and across all Federal agencies supporting National 
security. INGAA believes that TSA's on-going work with the NRMC and 
CISA is bridging that gap. We urge Congress to support TSA's efforts to 
improve its program and to provide the necessary guidance and funding 
for additional program management staffing and cybersecurity expertise 
that can work directly with the NRMC and support the new Pipeline 
Cybersecurity Assessment Initiative. INGAA believes that this 
supplement to efforts already under way will help make TSA successful 
in its mission to protect the Nation's pipeline infrastructure.

    Mr. Correa. Thank you very much for your testimony.
    Now I will recognize, Mr. Olson, for 5 minutes.

 STATEMENT OF ERIK ROBERT OLSON, VICE PRESIDENT, RAIL SECURITY 
                            ALLIANCE

    Mr. Olson. Chairman Correa, Chairman Richmond, Ranking 
Member Lesko, and Members of the subcommittees, my name is Erik 
Olson, and I am the vice president of the Rail Security 
Alliance. The Rail Security Alliance is a coalition of North 
American freight rail manufacturers, suppliers, unions, and 
steel interests, committed to ensuring the economic and 
National security of our passenger and freight rail systems. On 
behalf of our coalition thank you for the opportunity to 
testify on the critical topic of securing our surface 
transportation systems against cyber and privacy threats.
    With thousands of miles of railroad covering the United 
States, freight rail regularly transports everything from 
sensitive U.S. military equipment, to toxic and hazardous waste 
every day. On the passenger side millions of Americans rely on 
the commuter rail system daily. U.S. Rail System is also highly 
sophisticated, relying on a constantly expanding network of 
technology that dramatically increases its risks to cyber 
attack and hacking.
    Today I want to draw the committee's attention to a 
particular threat arising from foreign investments in this 
industry that jeopardizes directly the future of America's 
Passenger and Freight Rail Systems. This threat is China.
    China is strategically targeting the U.S. rail 
manufacturing sector with aggressive anti-competitive tactics 
and how do we know that? Well, to date they have secured 4 U.S. 
metropolitan transit contracts in Boston, Chicago, 
Philadelphia, and Los Angeles, largely by utilizing anti-
competitive under-bidding practices. These aggressive and anti-
competitive activities are not unusual for China state-owned 
rail sector and raise grave National concerns, security 
concerns that demand immediate attention.
    Without decisive action America's industrial, military, and 
other Government interests could be forced to rely 
significantly or wholly on rail cars made by the Chinese 
government thus creating massive cyber vulnerabilities that 
threaten our Nation.
    The Made in China 2025 Initiative, a key component of 
China's 13th 5-Year Plan identifies the rail manufacturing 
sector as a top target for Chinese expansion. This initiative 
has systematically and deliberately driven strategic investment 
and financing activities of the state-owned China Railway 
Rolling Stock Corporation, CRRC, in third-country markets and 
the United States. CRRC is wholly owned by the government of 
China. It has 90 percent of China's domestic market for 
production of rail locomotives, bullet trains, passenger 
trains, and Metro vehicles.
    In just the last 5 years alone in the United States, we 
have witnessed CRRC execute a business strategy to take market 
share in the U.S. transit rail manufacturing sector deploying 
near-limitless financing from its home government, allowing 
CRRC to establish itself as a formidable force in the U.S. rail 
transit manufacturing base.
    Emboldened with these contract victories, CRRC continues to 
target other U.S. cities including our Nation's capital. In 
September the Washington Metropolitan Transit Authority, WMATA, 
issued a request for proposal for the new 8000-series Metro 
Car. This RFP includes numerous technologies which are 
susceptible to cyber attacks. Whoever is selected to supply 
rail cars for WMATA will become a partner in the day-to-day 
operations of a Metro System whose stops include the Pentagon, 
the Capitol, as well as unfettered access to D.C.'s tunnels and 
underground infrastructure. As CRRC itself has stated, their 
objective is to conquer the rest of the global rail market--
need I say more? Whether they be State, local, or Federal 
funds, American taxpayer dollars should not be used to 
subsidize the activities of a Chinese state-owned enterprise 
and compromise American security.
    Based on the experiences of Australia, which this graph 
denotes, whose domestic industry, CRRC was able to wipe out in 
under a decade, we are equally concerned that CRRC will 
leverage its growing presence in the U.S. transit rail 
production to then pivot into freight rail assembly; we cannot 
allow this to happen here.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olson. Yet the Department of Homeland Security deems 
the U.S. rail sector as a part of the Nation's critical 
infrastructure, running through every major American city and 
every military base in the Nation. We have had extensive 
discussions with representatives from DOD and based on those 
discussions, I am confident that the Secretary of Defense will 
express his concerns on this matter as well.
    As China's CRRC becomes more dominant [inaudible] should 
the United States rely on a Chinese state-owned enterprise for 
the production of our countries freight and passenger rail 
cars, the position of RSA is a resounding, no. The strategic 
targeting of our Nation's infrastructure by the government of 
China and its state-owned enterprises poses a fundamental 
threat to the fabric of our critical infrastructure and is a 
pressure point for malicious cyber actors to threaten not only 
the economic and National security of the United States but our 
standing as a global power.
    Thank you again for the opportunity to testify. I look 
forward to answering any questions you may have.
    [The prepared statement of Mr. Olson follows:]
                Prepared Statement of Erik Robert Olson
                           February 26, 2019
                              introduction
    Chairman Correa, Chairman Richmond, Ranking Member Lesko, Ranking 
Member Katko, and Members of the subcommittees, my name is Erik Olson 
and I am the vice president of the Rail Security Alliance. The Rail 
Security Alliance is a coalition of North American freight rail car 
manufacturers, suppliers, unions, and steel interests committed to 
ensuring the economic and National security of our passenger and 
freight rail systems. On behalf of our coalition, thank you for the 
opportunity to testify on the critical topic of securing our surface 
transportation systems against cyber and privacy threats.
    Rail in the United States is an integral component of our critical 
infrastructure and our way of life. With nearly 140,000 miles of 
railroad covering the United States, freight rail regularly transports 
key commodities, sensitive U.S. military equipment, hazardous waste, 
potentially toxic and hazardous chemicals, and flammable liquids across 
the country every day. On the passenger side, millions of Americans 
rely on commuter rail systems every day. The U.S. rail system is also 
highly sophisticated, relying on a constantly expanding network of 
technology and digitization that dramatically increases its risk to 
cyber attack and hacking.
    Today, I want to draw the committee's attention to a particular 
threat arising from foreign investment in this industry that 
jeopardizes the future of America's passenger and freight rail systems. 
China is strategically targeting the U.S. rail manufacturing sector, 
with aggressive, strategic, and anticompetitive actions. Thus far they 
have secured four U.S. metropolitan transit contracts, largely by 
utilizing anticompetitive under-bidding practices. With China's 
government picking up U.S. transit rail manufacturing contracts, the 
Chinese are now using their rail manufacturing capabilities to assail 
the U.S. freight manufacturing sector in a move that is reminiscent of 
what has already occurred in third-country markets such as Australia. 
This activity is a pattern for China's state-owned rail sector and 
raises grave National security concerns. Without action, America's 
industrial, military, and other Government interests could be forced to 
rely significantly or wholly on rail cars made by the Chinese 
government, thus creating massive cyber vulnerabilities that threaten 
our military and industrial security.
     china's state-owned enterprises target u.s. rail manufacturing
    The ``Made in China 2025'' initiative, a key component of China's 
13th Five-Year plan,\1\ identifies the rail manufacturing sector as a 
top target for Chinese expansion. This initiative has systematically 
and deliberately driven strategic investment and financing activities 
of the state-owned China Railway Rolling Stock Corporation (CRRC) in 
third-country markets and the United States. CRRC is wholly owned by 
the government of China and it has 90 percent of China's domestic 
market for production of rail locomotives, bullet trains, passenger 
trains, and metro vehicles.\2\ In 2015, CRRC reported revenues of more 
than $37 billion \3\--significantly outpacing the entire U.S. rail car 
market, which had $22 billion of output during the same year.\4\ 
According to Chinese state media, CRRC plans to increase overseas sales 
to $15 billion by next year alone. This represents about double the 
level of export orders from just 4 years ago \5\ and according to 
CRRC's own presentation materials the U.S. market remains a prime 
target to, as they put it, ``conquer.''\6\
---------------------------------------------------------------------------
    \1\ U.S.-China Economic and Security Review Commission, 2016 Report 
to Congress, November 2016, at 100.
    \2\ Langi Chiang, China's largest train maker CRRC Corp announces 
12.2 billion yuan in contracts, South China Morning Report, July 23, 
2015. https://www.scmp.com/business/companies/article/1842983/chinas-
largest-train-maker-crrc-corp-announces-122-billion-yuan.
    \3\ CRRC Corporation, 2015 CRRC Annual Report, https://
www.crrcgc.cc/Portals/73/Uploads/Files/2016/8-23/
636075436968234671.pdf.
    \4\ Oxford Economics, Will We Derail US Freight Rolling Stock 
Production?, May 2017, at 24.
    \5\ Brenda Goh, China Trainmaker CRRC to build more plants abroad 
in expansion plan: China Daily, REUTERS, Dec. 5, 2016, http://
www.reuters.com/article/us-crrc-expansion-idUSKBN13U0EJ.
    \6\ @CRRC_global, ``Following CRRC's entry to Jamaica, our products 
are now offered to 104 countries and regions. So far, 83 percent of all 
rail products in the world are operated by #CRRC or are CRRC ones. How 
long will it take for us conquering the remaining 17 percent?'' 
Twitter, January 11, 2018. https://twitter.com/CRRC_global/status/
951476296860819456.
---------------------------------------------------------------------------
    Using State-backed financing, subsidies, and an array of other 
government resources, CRRC has strategically targeted and sought to 
capture the U.S. railcar manufacturing sector. In just the last 5 years 
the United States has witnessed CRRC establish rail assembly operations 
for transit railcars in 3 States, along with additional research and 
bidding operations in several others. By beginning with a business 
strategy to take market share in the U.S. transit rail manufacturing 
sector and deploying near-limitless financing from its home government 
to help lower the well-below-market bids for new U.S. metropolitan 
transit projects, CRRC has quickly established itself as a formidable 
force in U.S. transit rail competition.
    Several recent cases involving CRRC bids for new transit rail 
projects serve as compelling examples of the strategy being employed by 
China to capture our rail systems:
  <bullet> CRRC bid $567 million to win a contract with the 
        Massachusetts Bay Transit Authority (MBTA) in Boston in 2014, 
        coming in roughly 50 percent below other bidders.\7\
---------------------------------------------------------------------------
    \7\ Bonnie Cao, After Winning MBTA Contract, China Trainmaker CRRC 
Plans American Expansion, Boston Globe, Sept. 11, 2015. https://
www.bostonglobe.com/business/2015/09/11/after-winning-mbta-contract-
china-trainmaker-crrc-plans-american-expansion/jnS1kU7uHWF- 
GR9gjWmDEjM/story.html.
---------------------------------------------------------------------------
  <bullet> In 2016, CRRC won a contract to provide transit rail for the 
        Chicago Transit Authority (CTA), bidding $226 million less than 
        the next-highest bidder.\8\
---------------------------------------------------------------------------
    \8\ Corilyn Shropshire, First Step to New CTA Rail Cars: Build the 
Factory in Chicago, Chicago Tribune, Mar. 16, 2017. http://
www.chicagotribune.com/business/ct-cta-new-railcar-plant-0316-biz-
20170315-story.html.
---------------------------------------------------------------------------
  <bullet> In early 2017, CRRC bid $137.5 million for a contract with 
        Southeastern Pennsylvania Transportation Authority (SEPTA) in 
        Philadelphia, underbidding the next-lowest bidder--which had a 
        robust local manufacturing presence--by $34 million.\9\
---------------------------------------------------------------------------
    \9\ Jason Laughlin, Mass.-Based Company with Chinese Backing Beats 
Local Group for SEPTA Car Contract, The Philadelphia Inquirer, Mar. 21, 
2017. http://www.philly.com/philly/business/transportation/Mass-based-
company-with-Chinese-backing-beats-out-local-group-for-SEP- TA-car-
contract.html.
---------------------------------------------------------------------------
  <bullet> In March 2017, CRRC finalized a contract with the Los 
        Angeles County Metropolitan Transportation Authority for its 
        transit rail system worth up to $647 million.\10\ Again, China 
        did this by leveraging below-market financing, which in turn 
        undercut other bidders.
---------------------------------------------------------------------------
    \10\ Keith Barrow, Los Angeles Orders CRRC Metro Cars, 
International Railway Journal, Mar. 24, 2017. http://
www.railjournal.com/index.php/north-america/los-angeles-orders-crrc-
metro-cars.html.
---------------------------------------------------------------------------
    Emboldened with these contract wins, CRRC continues to target other 
U.S. cities, including our Nation's capital. In September, the 
Washington Metropolitan Transit Authority (WMATA), which is the second-
largest mass transit system in the country, issued a Request for 
Proposals (RFP) for the new 8000-series metro car. This RFP includes 
video surveillance, monitoring and diagnostics, data interface with 
WMATA, and automatic train control systems that are susceptible to 
cyber attacks. In response to concerns expressed by a number of 
lawmakers, including the Vice Chairman of the Senate Intelligence 
Committee, WMATA re-issued its RFP to include additional cybersecurity 
protections.\11\
---------------------------------------------------------------------------
    \11\ Sean Lyngaas, D.C. Metro system beefs up supply chain 
cybersecurity provisions for new rail cars, Cyberscoop, February 6, 
2019. https://www.cyberscoop.com/metro-dc-subway-cyberscecurity-rfp/.
---------------------------------------------------------------------------
    But the Rail Security Alliance's concerns do not end there. 
Whomever is selected to supply rail cars for WMATA will become a 
partner in the day-to-day operations of a Metro system whose stops 
include the Pentagon and the Capitol, as well as unfettered access to 
our Nation's tunnels and underground infrastructure.
    We couple this reality with two additional critical facts. First, a 
Classified report written by WMATA's inspector general recently 
concluded that there were significant shortcomings in WMATA's 
enterprise-level cybersecurity posture.\12\ Second, just last week the 
New York Times noted that ``businesses and government agencies in the 
United States have been targeted in aggressive attacks by . . . Chinese 
hackers . . . ''.\13\ So, in light of China's pervasive history of 
cyber espionage and hacking, it is the position of the Rail Security 
Alliance that we cannot trust a Chinese state-owned enterprise to 
build, own, or operate in U.S. critical infrastructure.
---------------------------------------------------------------------------
    \12\ Ryan Johnston, D.C. Metro needs to improve its cybersecurity, 
audit finds, Statescoop, July 9, 2018. https://statescoop.com/wmata-
incident-response-audit-calls-for-improved-cybersecurity-plan/.
    \13\ Nicole Perlroth, Chinese and Iranian Hackers Renew Their 
Attacks on U.S. Companies, New York Times, February 18, 2019. https://
www.nytimes.com/2019/02/18/technology/hackers-chinese-iran-usa.html.
---------------------------------------------------------------------------
    These developments are even more alarming because they provide CRRC 
the opportunity to pivot into freight rail assembly, a subsector of 
rail not protected by the same Buy America requirements as transit 
rail, and one that represents a troubling vulnerability if overtaken by 
the government of China. Even so, CRRC is making steady and deliberate 
headway into this sector with the launch of Vertex Rail Corporation and 
American Railcar Services. Vertex Rail Corporation is now, a defunct 
freight rail assembly facility that was based in Wilmington, North 
Carolina. On the other hand, American Railcar Services is a separate 
assembly facility headquartered in Miami, FL that maintains assembly 
operations in Moncton, New Brunswick.
    Concerns about CRRC's transition into freight rail manufacturing 
are best illustrated by the recent experiences of third-country markets 
like Australia, whose freight rail manufacturing sector CRRC entered in 
2008. In less than 10 years, CRRC effectively decimated the sector, 
forcing the 4 domestic suppliers out of business and out of the rail 
market which left only CRRC standing. Today, almost no meaningful 
Australian passenger or freight rolling stock manufacturing exists--
CRRC's Australia footprint is almost exclusively that of an assembler 
of Chinese-made parts and a financier of purchases from CRRC. We cannot 
let that happen here.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   implications for national security
    Unlike the U.S. maritime shipping industry, whose security is 
protected by the Jones Act, a measure that requires vessels 
transporting goods between U.S. ports to be U.S.-built and majority 
U.S.-owned, freight rail in America has been left comparatively 
unprotected. Yet, the Department of Homeland Security (DHS) deems the 
U.S. rail sector as part of the Nation's critical infrastructure,\14\ 
noting that 140,000 rail miles enable U.S. freight rail to run through 
every major American city and every military base in the Nation. The 
Department of Defense (DoD), which itself maintains a fleet of more 
than 1,300 rail cars, has also designated nearly 40,000 miles of 
freight rail as part of the Strategic Rail Corridor Network (STRACNET), 
a comprehensive rail network that connects military bases and maritime 
ports across the country.\15\ We have had extensive discussions with 
representatives from the Department of Defense, and based on those 
discussions I am confident that the Secretary of Defense would express 
his concerns on this matter as well.
---------------------------------------------------------------------------
    \14\ Presidential Policy Directive 21 (PPD-21) identifies 16 
critical infrastructure sectors, including ``Transportation Systems.'' 
The Department of Homeland Security defines ``Freight Rail'' as 1 of 
the 7 key subsectors. See generally, PPD-21, Critical Infrastructure 
Security and Resilience, Feb. 12, 2013, https://www.whitehouse.gov/the-
press-office/2013/02/12/Presidential-policy-directive-critical-
infrastructure-security-and-resil and Transportation Systems Sector, 
Dep't of Homeland Sec., Mar. 25, 2013, http://www.dhs.gov/
transportation-systems-sector.
    \15\ ``Strategic Rail Corridor Network (STRACNET),'' Global 
Security, 2012. https://www.globalsecurity.org/military/facility/
stracnet.htm.
---------------------------------------------------------------------------
    Because freight rail transports not only military freight and 
industrial products, but also nuclear material and hazardous chemicals 
that can be safely and effectively transported only by rail, there is a 
serious risk that the technologies in these systems could be 
compromised by a malicious actor. As noted by Brig. Gen. John Adams 
(USA, Ret.) in a 2018 report on the vulnerabilities of freight 
rail,\16\ our rail system's rapidly expanding internet of things (IoT) 
capabilities presents an array of National security challenges that 
include:
---------------------------------------------------------------------------
    \16\ National Security Vulnerabilities of the U.S. Freight Rail 
Infrastructure and Manufacturing Sector--Threats and Mitigation, 
Brigadier General John Adams, US Army (Retired), October 22, 2018.
---------------------------------------------------------------------------
  <bullet> A digitized railroad network/the internet of things.--
        Integrated teams of data scientists, software developers, and 
        engineers develop and apply technology across every aspect of 
        the Nation-wide freight rail network, effectively increasing 
        the vulnerability of industrial control systems, train 
        operations, and perhaps even the industry's metadata 
        warehousing centers to cyber threats.
  <bullet> Rail Signaling.--Congress has mandated the installation of 
        positive train control (PTC) systems on much of the Nation's 
        rail systems as a means of preventing specific accidents. A 
        malicious cyber breach of PTC or underlying existing rail 
        signaling systems could wreak havoc and cause accidents or 
        derailments on the highly interdependent freight railway 
        network.
  <bullet> Locomotives.--Rail locomotives rely upon hundreds of sensors 
        to monitor asset health and performance of train systems.
  <bullet> On-board Freight Car Location & Asset Health Monitoring.--
        Thousands of freight cars are equipped with telematics or 
        remote monitoring equipment, many of which are carrying 
        hazardous materials like chlorine, anhydrous ammonia, ethylene 
        oxide, and flammable liquids. This tracking technology includes 
        a wireless communication management unit to track precise near-
        real-time location via GPS, direction of travel, speed, and 
        dwell time within the Transportation Security Administration 
        (TSA)'s 45 designated high-threat urban areas (HTUAs).\17\
---------------------------------------------------------------------------
    \17\ The Transportation Security Administration defines an HTUA as 
an area comprising one or more cities and the surrounding areas, 
including a 10-mile buffer zone.
---------------------------------------------------------------------------
    End-of-Train Telemetry (EOT).--The FRA requires all freight trains 
operating on excess of 30 mph to be equipped with a 2-way EOT device 
that tracks GPS location and can allow a locomotive engineer to 
initiate an emergency brake application, a critical safety feature for 
trains that can stretch upwards of 10,000 feet long (See Attachment A).
    The presence of these evolving technologies underscores the clear 
danger of a foreign country, and particularly the government of China 
and its state-owned enterprises, having undue control of freight 
manufacturing in the U.S. market. Already, there are reports of Chinese 
manufacturers investigating the production of their own ``telematics'' 
technology to allow the monitoring and control of their rail cars.\18\ 
On the transit side, China is already boasting about how it has 
utilized the latest advances in AI and facial recognition technology to 
identify and track its 1.4 billion citizens,\19\ creating a very real 
prospect that they could do the same here in the United States.
---------------------------------------------------------------------------
    \18\ China plans ``smart trains'' to take on global rail companies, 
CHINA DAILY, March 10, 2016, http://english.chinamil.com.cn/news-
channels/2016-03/10/content_6952271_2.htm.
    \19\ Surveillance Cameras Made by China Are Hanging All Over the 
U.S., The Wall Street Journal, November 12, 2017. https://www.wsj.com/
articles/surveillance-cameras-made-by-china-are-hanging-all-over-the-u-
s-1510513949.
---------------------------------------------------------------------------
                               conclusion
    As China's CRRC becomes more dominant as a U.S. rail manufacturer, 
there are urgent and compelling questions we must answer regarding 
whether a growing presence of, and reliance upon freight or passenger 
cars from a major state-owned Chinese rail enterprise is likely to 
compromise the security and safety of industrial, military, and 
civilian transportation systems in the United States. For that reason, 
we are grateful that Congress passed legislation last year that would 
mandate the Department of Homeland Security, in coordination with the 
Committee on Foreign Investment in the United States and the Department 
of Transportation, produce a report on the National security threats of 
Chinese SOE investment in our rolling stock manufacturing sector,\20\ 
and we strongly urge the committee to work with DHS as that report is 
completed.
---------------------------------------------------------------------------
    \20\ See. H.R. 5515--John S. McCain National Defense Authorization 
Act for Fiscal Year 2019, Sec. 1719(c).
---------------------------------------------------------------------------
    We greatly appreciate the committee's interest in addressing these 
critical issues. The strategic targeting of our Nation's infrastructure 
by the government of China and its state-owned enterprises poses a 
fundamental threat to the fabric of our critical infrastructure and is 
a pressure point for malicious cyber actors to threaten not only the 
economic and National security of the United States, but to our 
standing as a global power.
    Thank you again for the opportunity to testify. I look forward to 
answering any questions you may have.*
---------------------------------------------------------------------------
    * Attachment A has been retained in committee files and is 
available at https://go.americanmanufacturing.org/page/-/
Adams_Freight_Rail.pdf.

    Mr. Correa. Thank you, for your statements.
    I would like to recognize Mr. Hultquist, for 5 minutes.

STATEMENT OF JOHN HULTQUIST, DIRECTOR OF INTELLIGENCE ANALYSIS, 
                            FIRE EYE

    Mr. Hultquist. Chairman Correa, and, Ranking Member Lesko, 
for convening this joint hearing today. My name is John 
Hultquist, and I am the director of intelligence analysis for 
FireEye. My team of over 150 intelligence analysts and 
researchers pore over data we collect from FireEye's global 
networks of devices, incident response, researchers monitoring 
the criminal underground and many more sources to understand 
the global cyber threat.
    FireEye is supporting the transportation and energy sectors 
here at home. We are protecting TSA with email--thank you--and 
web inspection and we are providing support to DHS's 
subscription to our intelligence reporting.
    At DOE we are supporting network and file inspection, 
malware analysis, and protecting their data from threats down 
at their endpoints. The Department is the largest civilian 
agency, consumer of our intelligence reporting which provides 
focused visibility into threats targeted at the energy sector.
    Today I will focus primarily on threats on the horizon that 
FireEye is watching develop in the Middle East, Ukraine, South 
Korea, where Iran, Russia, North Korea, are the most active.
    Despite a dearth of recent specific examples of pipeline 
targeting by state actors that we have observed, targeting the 
sector is consistent with the behavior of several state actors 
who have carried out disruptive and destructive operations. 
Pipelines sit at the nexus of two well-established interests 
for state actors, energy and transportation. For example, oil 
and gas has been the major focus of a long-term destructive 
malware campaign by Iran in the Gulf.
    Though these attacks have targeted critical infrastructure 
organizations, they have primarily affected business-focused IT 
systems rather than sensitive controls systems. Nonetheless 
Iranian-sponsored threat actors have caused significant, costly 
disruptions from 2012 to as recently as 2018 using this 
capability.
    The Middle East was also the scene of the most 
disconcerting attack on control systems we have observed. In an 
industrial plant, they have suffered a disruption when 
attackers inadvertently triggered a shutdown using a malware we 
call Triton. They triggered the shutdown because they were 
attempting to manipulate automated safety systems, one of the 
last lines of defense to protect human life. We believe this 
activity originated from a Russian government organization.
    Transportation and logistics systems have been unrecognized 
but fruitful focus for state cyber attackers as well. During 
and between attacks on Ukraine's grid, attempts were made by 
the same Russian actors to gain access to rail, air, and sea 
transportation routes and hubs to varying degrees of success.
    Many of the companies which posted major losses from the 
NotPetya Ransomware incident in the hundreds of millions of 
dollars were also in the logistics business, despite this 
industry not having been specifically targeted. Such a pattern 
could indicate that logistics organizations may be especially 
economically vulnerable to incidents of this nature.
    Like pipeline operations, transit networks have been 
subjected to ransomware operations and denial-of-service 
attacks which have on occasions resulted in disruption to 
service. Ransomware which has affected many municipal services 
has been used to hold transit systems hostage in return for 
payment. The websites associated with mass transit systems 
which are often crucial to their business have also been 
subjected to denial-of-service attacks, in some cases 
disrupting travel. Both ransomware and denial-of-service are 
capabilities used by state actors.
    The complexity of transit networks and the potential for 
cascading economic consequences from disruption, bear 
similarities to pipelines, however transit networks offer an 
additional attraction to would-be attackers. Transit is a 
highly-visible sector with which the public regularly 
interacts; this factor is especially relevant as many cyber 
attacks appear to be more focused on psychological effects and 
undermining confidence in institutions and creating lasting 
physical effects.
    It is important to bear in mind that our adversaries are 
not necessarily preparing for a doomsday situation or any 
lasting blow but a asymmetric scenario where they can project 
power onto our shores. Ultimately their aim may be to sow chaos 
rather than to achieve some complex military objective.
    Thank you, again for the opportunity to participate in 
today's discussion. I am happy to answer any of your questions.
    [The prepared statement of Mr. Hultquest follows:]
                  Prepared Statement of John Hultquist
                           February 26, 2019
    Thank you, Chairman Richmond, Ranking Member Katko, Chairman 
Correa, and Ranking Member Lesko for convening this joint hearing 
today. We appreciate the opportunity to share FireEye's perspective on 
threats to the transportation and energy sectors and provide an 
overview of how the private sector is helping to secure those sectors.
                              introduction
    My name is John Hultquist, and I'm the director of intelligence 
analysis for FireEye. My team of over 150 intelligence analysts and 
researchers pore over data we collect from FireEye's global networks of 
devices, managed defense of 7 global Security Operations Centers, our 
incident response, researchers we have monitoring the criminal 
underground, and many more sources to understand the global cyber 
threat. We have teams focused on criminal threats, cyber espionage, 
cyber physical, and strategic problems, as well as vulnerabilities. 
Ultimately, we provide intelligence reporting and services used by 
Government and commercial clients around the world.
    In addition to the 300-plus security professionals responding to 
computer intrusions, FireEye has over 200 cyber-threat analysts on 
staff in 18 countries, speaking 30 different languages, to help us 
predict threats and better understand the adversary--often by 
considering the political and cultural environment of the threat 
actors. We have an enormous catalog of threat intelligence, and it 
continues to grow everyday alongside the continually increasing attacks 
on organizations around the world.
    FireEye is supporting the transportation and energy sectors here at 
home. We're protecting the Transportation Security Administration with 
both email and web inspection, managed by the Department of Homeland 
Security's Enterprise Security Operations Center. As TSA continues to 
stand up its intelligence capabilities, we are providing support 
through its subscription to our intelligence reporting.
    Additionally, we assist in protecting the Department of Energy by 
supporting network and file inspection, malware analysis, and 
protecting their data from threats down to their endpoints. We provide 
the ability for deep forensics inspection of all network traffic 
managed by the Department's Enterprise Security Operations Center. As 
DOE continues to enhance its cyber capabilities, we provide visibility 
to meet the Data Taxonomy Metrics. The Department is the largest 
civilian agency consumer of our intelligence reporting, which provides 
focused visibility into the threats targeted at the energy sector.
    In addition to my role at FireEye I'm an adjunct professor at 
Georgetown University and the founder of CYBERWARCON, a conference on 
the cyber attack and information operations threat.
    I have been working in cyber intelligence for over a decade, most 
of it at FireEye, but before that I worked as a contract cyber 
intelligence analyst with the Defense Intelligence Agency and State 
Department. Prior to that I worked briefly at the Surface 
Transportation and Public Transit Information Sharing and Analysis 
Center where I was an analyst exploring threats to the sector we will 
be discussing today. Part of my duties there were to forecast domestic 
threats by exploring global incidents. Though much of this work was 
focused on counterterrorism, I believe the methodology I employed there 
is applicable to this problem. If we want to forecast threats to 
surface transportation, we have to look globally for the actors who may 
target this sector, and explore not just how they carry out attacks, 
but why.
    Today I will talk about a few incidents that have already affected 
surface transportation, but I will focus primarily on threats on the 
horizon that FireEye is watching develop in the Middle East, Ukraine, 
and South Korea, where Iran, Russia, and North Korea are most active. 
My team has had some success with this method. In 2014, we exposed an 
actor, who we call Sandworm Team, which was carrying out cyber 
espionage in Ukraine and who was soon after exposed in U.S. critical 
infrastructure. A year later this actor caused the first known blackout 
by cyber attack in the Ukraine.
                               pipelines
    Criminal, state, and hacktivist actors have all demonstrated an 
interest in pipeline operators. Pipeline operators have been the victim 
of criminal ransomware incidents on multiple occasions. Hacktivist 
actors have threatened pipelines for environmental and other political 
reasons. We have seen some specific interest in pipeline infrastructure 
from state actors as well. APT1, an actor tied to China's People's 
Liberation Army, carried out an intrusion campaign attempting to gain 
access to pipeline operators in 2012. While we do not think the 
campaign aimed to cause any immediate effects, at the time we did 
assess that it was reconnaissance of our infrastructure that could be 
leveraged over the long term.
    Despite the dearth of additional specific examples of pipeline 
targeting, targeting the sector is consistent with the behavior of 
several state actors who have carried out disruptive and destructive 
operations. Pipelines sit at the nexus of two well-established 
interests for these state attackers: Energy and transportation. Despite 
a relatively brief history of disruptive and destructive cyber attacks 
against critical infrastructure, several incidents have focused on 
these sectors where the potential for cascading economic and 
psychological effects on the target population is considerable.
    Energy, particularly oil and gas and the electrical power industry, 
has been the continued focus of threat actors who have either carried 
out disruptive cyber attacks or who appear to be tasked with preparing 
for such an operation. Destructive and disruptive attacks on oil and 
gas have almost become common in the Middle East where our U.S. 
adversaries are showcasing their capabilities and improving their 
skills.
    For example, oil and gas has been the major focus of a long-term 
destructive campaign by Iran in the Gulf using destructive malware 
commonly referred to as ``Shamoon.'' Though these attacks have targeted 
critical infrastructure organizations, they have primarily affected 
business-focused IT systems rather than the sensitive control systems 
which run production. Nonetheless, Iranian-sponsored threat actors 
caused significant, costly disruptions from 2012 to as recently as 
December 2018, the last time we observed one of these incidents.
    The Middle East was also the scene of the most disconcerting attack 
on control systems we have observed. An industrial plant there suffered 
a disruption when attackers inadvertently triggered a shutdown using 
malware we call TRITON. They triggered that shutdown because they were 
attempting to manipulate automated safety systems, one of the last 
lines of defense to protect human life. We believe the attackers were 
developing the ability to create an unsafe condition using the control 
systems, while simultaneously disabling the safety systems designed to 
mitigate the attack. Such a scenario could have led to major disruption 
of operations, economic loss, and even loss of life. We believe this 
activity originated from a Russian government organization called the 
Central Scientific Research Institute of Chemistry and Mechanics. It is 
unknown whether these actors had been tasked to target the plant for 
some specific geopolitical goal or if they were using this Middle 
Eastern facility as a testbed to improve their capability.
    In principal, methodologies honed in the Middle East against oil 
and gas could be applied to our pipeline sector. Destructive attacks 
could be used to interrupt the administration of these complex systems, 
potentially causing economic repercussions that cascade through the 
myriad of downstream users who depend on reliable service. A more 
complex scenario, like the TRITON incident, could also target 
pipelines, which could be manipulated to potentially disastrous 
consequences if actors can gain access to control and safety systems.
    Transportation and logistics systems have been an underrecognized 
but fruitful focus for state cyber attackers as well. During and 
between well-known attacks in Ukraine which turned off the power to 
portions of the country, attempts were made by the same Russian actors 
to gain access to rail, air, and sea transportation routes and hubs, to 
varying degrees of success. In fact, we saw evidence indicating that 
while they were prepping the first attack that briefly disabled power 
service in the Ukraine, the actors we call Sandworm Team were also 
compromising airport and rail services. There are plausible but 
unverified reports of an attack which lead to disruption of rail 
service coincided with the second attack on Ukraine's grid.
    As in the case of the Middle East, in Ukraine, we see technically 
complex cyber attacks that strike at the most sensitive industrial 
control systems, such as those that caused blackouts, as well as 
attacks that are not focused on these systems at all. Both types of 
attack have been successful. While grid attacks were undoubtedly 
watershed events, the most economically damaging attack we have ever 
encountered was fake ransomware called NotPetya. This fake ransomware-
encrypted drives just like its real criminal counterpart, but the state 
actors behind it never intended to decrypt this information for any 
amount of money, essentially making it a destructive tool. The malware 
spread rapidly, locking up vital systems and causing major disruptions 
to global companies. The result was over 10 billion dollars in damages, 
according to one White House estimate. Most notably, however, many of 
the companies which posted major losses in the hundreds of millions 
were in the logistics business, despite this industry not having been 
specifically targeted. Such a pattern could indicate that logistics 
organizations may be especially economically vulnerable to cyber 
attacks of this nature.
                                transit
    Like pipeline operations, transit networks have been subjected to 
ransomware operations and denial-of-service attacks, which have, on 
occasion, resulted in disruption to service. Ransomware, which has 
affected many municipal services, has been used to hold transit systems 
hostage in return for payment. An attack like this in San Francisco 
took tickets systems off-line, but operations continued when riders 
were offered free passage. In most cases we believe the attackers were 
financially motivated, though it is worth noting that these incidents 
expose a vulnerability that state actors, who have used a fake 
ransomware capability, could exploit.
    In addition to ransomware incidents, the websites associated with 
mass transit systems, which are often crucial to their business, have 
been subjected to denial-of-service attacks. These incidents, which 
involve the use of a network of hijacked computers to jam a website 
with bogus traffic, have in some cases frozen operations. We have seen 
this phenomenon as far afield as Ukraine and Sweden. In 2017, transit 
systems in Sweden came under a prolonged attack by an unknown actor who 
disrupted travel. It is worth noting that like ransomware, denial of 
service is a capability used by state actors. And just as ransomware 
allows these actors to carry out attacks while hiding their true 
intentions, state actors have purported to be hacktivists and taken 
credit for denial-of-service attacks, hiding their hand it the 
operations. This was the case in the United States, where Iranian 
hackers attacking our financial system claimed to be a pan-Arab 
hacktivist. Furthermore, there is a reduced barrier to entry for these 
types of attacks, and even states without this capability could source 
it from the criminal underground.
    The complexity of transit networks and the potential for cascading 
economic consequences from disruption bear similarities to pipelines; 
however, transit networks offer an additional attraction to would-be 
attackers--transit is a highly-visible sector with which the public 
regularly interacts. This factor is especially relevant as many cyber 
attacks appear to be more focused on psychological effects and 
undermining confidence in institutions than creating lasting physical 
effects.
    One example of a highly-visible cyber attack which affected the 
populace is the destructive campaign against South Korean media and 
banking in 2013. Though this campaign failed to interrupt broadcasts, 
it did interrupt some banking services, including on-line banking and 
ATMs. The result was a visible crisis that affected the everyday lives 
of South Koreans and which might have been even greater if broadcasts 
were halted. Blackouts fall into this same category of having far-
reaching psychological effects. A disruption to transit could have a 
similar effect.
                               conclusion
    Thus far, U.S. critical infrastructure has been probed by actors 
from China, Russia, Iran, and North Korea. In many cases, these actors 
have focused heavily on electricity generation; however, our experience 
with them abroad suggests a much broader interest in creating 
disruptive or destructive effects. We should take these lessons to 
heart now and prepare for incidents across the transportation sector.
    It's important to bear in mind that our adversaries are not 
necessarily preparing for a doomsday situation, or any lasting blow, 
but an asymmetric scenario where they can project power within our 
shores. Ultimately, their aim may be to sow chaos rather than achieve 
some complex military objective. Nonetheless, these incidents could 
have economic and psychological effects we cannot ignore.
    Thank you again for the opportunity to participate in today's 
discussion. And thank you for your leadership improving cybersecurity 
in the transportation and energy sectors. I look forward to working 
with you to strengthen the partnership between the public and private 
sectors and to share best practices to thwart future cyber attacks.

    Mr. Correa. I thank our panelists for their testimony.
    If I may, I would like to recognize myself for 5 minutes of 
questions. I will start out with, Mr. Lewis, you made a comment 
at the end of your statement about credible threat, we need to 
be a credible threat, can you explain that a little bit?
    Mr. Lewis. Certainly. Thank you, Mr. Chairman.
    When we look at the behavior of Russia, China, Iran and to 
some extent North Korea, they are the most dangerous attackers 
but they are also very calculating, they are very rational and 
they ask themselves, ``If I do this to the Americans, what is 
the likelihood that the Americans will do something back?'' and 
if they believe there is no risk that we will do anything back, 
they are more likely to undertake some sort of hostile or 
coercive action.
    Mr. Correa. In this committee last year, the full Committee 
on Homeland Security, I asked the question, at what point does 
a cyber attack constitute a declaration of war on the United 
States? Any thoughts?
    Mr. Lewis. This is [inaudible] was an attack that caused 
death or destruction or casualties, it would qualify as 
justifying a forceful response. Unfortunately, we haven't seen 
very many of them and if you look at what the Russians did in 
2016, it wouldn't fall under that category so this is something 
that I believe the intelligence community and cyber command are 
working through. We need a new framework, if you cause death or 
destruction, you fear a risk, that you fear that the United 
States will retaliate. If you don't do that, people kind-of 
feel like they can get away with it.
    Mr. Correa. If you threaten our democracy or destabilize 
our Government, is that an act of war and I would ask that 
question to all of you?
    Mr. Lewis. Under the current legal construct, the answer 
would be no, right. You could make a case that by threatening 
the political integrity of the United States, it would qualify 
as an act of war but our main problem is that we became aware 
this was happening in April 2016, that is almost 3 years ago 
and we still have not done very much back.
    Mr. Correa. Mr. Olson, you talked a little bit about the 
challenge of Chinese assets, Chinese buying essentially their 
way into our markets, they are buying their markets and you 
talk about a threat, could you relate that back to the China's 
new 27 intelligence law that compels companies, Chinese 
companies to cooperate with the Chinese government?
    Mr. Olson. Sure. So I am not fully familiar with the law 
itself, I mean, I have read articles about it. I mean, our 
concern is that this is a wholly-owned, state-owned enterprise 
that has a board of directors with members of the Communist 
Party and we know that when they set up shop here in United 
States that we believe they are been directed by Beijing and 
the cyber issues, privacy issues, and just the economic 
security that stems from that is our main concern from RSA's 
point of view.
    Mr. Correa. Same question, to Mr. Hultquist.
    Mr. Hultquist. Right, I am not familiar with that exact 
regulation but it is not uncommon for Russia or China to 
enforce or compel companies to work with their cybersecurity or 
their Signals Intelligence agencies to gather information.
    Mr. Correa. Thank you very much.
    I am going to yield the remainder of my time.
    I will now recognize the gentle person from Arizona, Mrs. 
Lesko.
    Mrs. Lesko. Thank you, Mr. Chairman.
    My first question is for, Mr. Hultquist, hello sir. I have 
a couple of questions into one. Basically, how well do you 
think the industry uses ISAC, the information you know, where 
you share information with the industry [inaudible] and my 
secondary question is, what are the risks from insider threats?
    Mr. Hultquist. I had actually previously worked at a couple 
of the ISACs, actually the Surface Transportation and Public 
Transit ISAC, I worked there briefly before moving into the 
cyber world. They have made a lot of great strides in the cyber 
space and several of them I think on are very, very mature and 
are making a big difference.
    On one of the problems though is that we sometimes take 
this myopic view of our sector and we have failed to see 
threats coming because we are overly focused on just our own 
sector and it is important to look at our own sector but the 
actor who turned off the lights in Ukraine, was also targeting 
air, and rail, and all these other sectors, not because the 
lights were you know, particularly [inaudible] sometimes if we 
you know, we focus too much that way, we can kind-of miss that.
    I am sorry, your second question.
    Mrs. Lesko. Was, what is the risk of insider threats, like 
people that are working for, let us say, the rail system or 
passenger rail?
    Mr. Hultquist. Many of the----
    Mrs. Lesko. Or pipelines?
    Mr. Hultquist. Major critical infrastructure incidents that 
we have seen throughout history have involved an insider 
component, a contractor who didn't get hired on was upset about 
their situation and decided to lock things up or I believe 
there was a situation where they pumped toxic stuff into a 
[inaudible] critical infrastructure.
    Mrs. Lesko. What can be done about it, do you think?
    Mr. Hultquist. Probably a more complex or a more robust 
vetting process and recognition that when people move in and 
out of an organization, security measures need to be sort-of 
re-looked at particularly do they still have access, things of 
that nature.
    Mrs. Lesko. Thank you, sir.
    My next question is for the gentleman with the rail system 
and you had mentioned--I read this article that I think it was 
in The Washington Post, entitled, ``Could a Chinese-made Metro 
Car, spy on us?'' I think you were quoted in this and some of 
the transit authorities in this article, the Chicago Transit 
Authority, the Massachusetts Bay Transportation Authority, they 
basically said that none of the critical software components 
were being produced in China.
    What are your thoughts on that, are they misspoken or you 
know, they said that they are considering bids from CRRC but 
that the critical software components are not made in China and 
in fact one of the Massachusetts Bay Transportation Authority 
spokesman said, ``The design process for new rail cars includes 
a cybersecurity analysis based on the U.S. Department of 
Defense Military System Safety Standard,'' so I am glad that we 
are bringing this up because I think it is a legitimate concern 
but it seems like at least from these people, spokesman, that 
the critical infrastructure is not made in China.
    Can you comment?
    Mr. Hultquist. Yes. What I would say to that is that our 
concern is you can try to mitigate and the we heard from Ms. 
Proctor, earlier that the cyber concerns are ever-evolving. I 
don't know all the parts or the list of the parts but many 
parts are being made in China, the shells for Los Angeles and 
for Boston are being made in China and shipped to Springfield, 
Massachusetts so our position at RSA's risk avoidance.
    We don't know what can be put into a shell. We don't know 
what technology can be hid in there. The Chinese have a long 
view [inaudible] attack but we also think of it from a point of 
privacy. When you have access to the tunnel [inaudible] the 
CCTV, can you get access to the Wi-Fi system? We know how they 
profile their own citizens and it does not take a lot to lead 
to the fact that maybe you could do that here especially in the 
Metro region.
    Mrs. Lesko. Thank you, sir.
    I yield back my time.
    Mr. Correa. Thank you, Mrs. Lesko.
    I recognize the gentleman from Louisiana, Chairperson 
Richmond.
    Mr. Richmond. Thank you, Mr. Chairman.
    This will be for Ms. Gagliostro and Mr. Olson. It is 
basically describing your relationship with TSA-DHS as a whole 
but TSA and CISA. Has there been rail stakeholder involvement 
in the implementation and the goals outlined in the Pipeline 
Cybersecurity Initiative and, Mr. Olson, in your view, are DHS 
and TSA being proactive enough in sharing information about 
cyber threats and best practices within rail systems, and to 
both of you all, what could they be doing differently or more?
    Ms. Gagliostro. So I would say that yes, there has been 
rail stakeholder involvement beyond the efforts of the Pipeline 
Cybersecurity Initiative because as you know, that Initiative 
was only announced in October but prior to that TSA has been 
working to build its security program for over a decade now, 
has a very strong working relationship with industry. We 
regularly engage in Pipeline Sector stakeholder calls to share 
information about threat indicators that they are getting and 
also information about the tools that they are providing to 
industry to help us with their security programs.
    I think that the work that TSA is doing right now to have 
more coordination with DHS and the CISA Office, and the 
National Risk Management Center is a very positive step in the 
right direction of looking more comprehensively across these 
nation-state threats in particular that are targeting all 
critical infrastructure to make sure that we are empowering 
industry to learn from how these threats are looking 
[inaudible].
    Mr. Olson. To echo I agree that from my understanding, I 
mean, the folks at the Rail Security Alliance represents our 
private industry and we know they have been talking, TSA has 
their private briefings we heard that from, Ms. Proctor, 
earlier that they have been doing Classified briefings for 
members both in the Passenger Rail Sector and also the Freight 
Rail Sector. I think there can always be more and more 
involvement, we have certainly reached out to them to have 
conversations as well on this point.
    What I would say on the what could be done, what could they 
be doing more is DHS actually has a study sitting at Homeland 
Security right now that they need to complete by the end of the 
fiscal year, we would love to work with you all and work with 
the Department of Homeland Security on this study and ensure 
that private sectors' voice is heard as they are completing 
this risk assessment of what state-owned enterprises, how they 
could affect the U.S. transit and freight rail market.
    Mr. Richmond. Thank you for your time.
    Mr. Chairman, I do have prior commitments so I will yield 
the balance of my time through the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Correa. Thank you, Chairman Richmond.
    Mr. Cleaver, go ahead.
    Mr. Cleaver. Thank you, Mr. Chairman.
    I was mayor of Kansas City all during the 1990's up until 
2000 and I can remember one of the most frightening periods of 
my term as mayor came when we received word, we were not 
notified but we received word, there was very likely going to 
be a shipment of [inaudible] and taken to the Nevada, Yucca 
Mountain and there was a lot of resentment [inaudible] the 
largest freight-rail site in the country and St. Louis 200 
miles away is No. 3.
    We are a [inaudible] have been extremely concerned over the 
years about the transportation of waste but also how vulnerable 
we are and particularly in the Midwest because you know, no 
matter what the discussion is, it's probably even freight, we 
tend to focus on East Coast, West Coast, maybe a little part of 
the North Coast and the Midwest is wide open.
    I always like to remind people that the first major 
terrorist attack in this country occurred right in the middle--
Midwest at Oklahoma City at the Murrah Federal Building. It has 
nothing to do with rail but the point I am raising, Mr. Lewis, 
and, Mr. Olson, is that I am not sure that there is any 
appropriate attention being given to that part of the country 
where a lot of the rail is centered.
    Mr. Olson. I tend to agree with you, Congressman. I know 
that you know, the Class Is, the freight rail manufacturers are 
all working on these issues and working on the cyber aspects of 
this and the security aspects of this. RSA's position and has 
been as our concern is allowing the Chinese to come in and make 
freight railcars----
    Mr. Cleaver. Yes, sir.
    Mr. Olson [continuing]. And be a part of the system and the 
security challenges come with that. As you know, freight rail 
carries grain, from toxic waste, to military equipment, and our 
view is from RSA, as soon as you allow the Chinese into the 
system and they are building cars they are able to track where 
all these things are going and get a birds-eye view on where we 
are moving commodities, we are moving helicopters, where we are 
moving people and that is of grave concern for us from a 
National security perspective and we share your concerns sir.
    Mr. Cleaver. Mr. Lewis.
    Mr. Lewis. Thank you, Congressman. You know, I think 
there's two questions you always want to ask, does the device 
connect back home and there is a surprising answer to that 
increasingly as we connect things to the internet. I was 
reading yesterday about a smart doorbell that was inadvertently 
relaying peoples' voices back to China so rail cars are a good 
target, rail lines are a good target, they're traditional 
military targets, good target for disruption.
    The other thing you would want to ask though is when is it 
in the opponents' interest to do so and in that sense, they are 
looking at it from a National perspective. They are looking at 
from where the least-defended parts of the country, where can 
they achieve the most effect so in that way may be the Midwest 
is a good target.
    Mr. Cleaver. Yes. I would argue that there is some evidence 
to suggest that it is a target and of course my question, Mr. 
Chairman, is you know, when are we going to give the necessary 
attention? I mean, you know, when I am asked you know, the 
question, I am no longer in the mayor's office but the people 
wants to know, Homeland Security, so when are they going to 
give us the attention that they have been giving New York and 
Boston and San Francisco and Los Angeles and I guess I should 
say, it is still up in the air, until something happens. Is 
that [inaudible].
    Mr. Lewis. Attention has gone to the largest metropolitan 
areas and so you are really the top 12 SMSA, Standard 
Metropolitan Statistical Areas and so the question is, can we 
expand that? It is a question of cost and also of personnel as 
we have heard so that tends to mean that if you are not in the 
top 12, the top 20, you might not be getting the same attention 
as others.
    Mr. Correa. Thank you, Mr. Cleaver. Thank you very much and 
I would like to recognize the gentle person from New York, Miss 
Rice.
    Miss Rice. So, Mr. Lewis, just to continue on that so you 
had said at the beginning right at the end of your original 
statement, you talked about the cost factor. Can you just 
expound on that a little bit more?
    Mr. Lewis. Certainly. Thank you. We have heard from the 
other witnesses too that in many cases Chinese companies are 
subsidizing--it is part of a larger very aggressive 
mercantilist policy that the Chinese follow and so that allows 
them to offer products at a lower price and the information we 
saw in Australia and them squashing the competition there, you 
can find that in other industries so you have a subsidized 
price with pretty good equipment----
    Miss Rice. Right.
    Mr. Lewis. Some unknown risk for surveillance or disruption 
and the buyers have to make a decision, do I pay more for 
security or do I go with the lower cost and------
    Miss Rice. So why is the Federal Government allowing them 
to make that decision at their level, regardless of whether the 
money that they are using is State money or Federal money. I 
mean, I would assume if it is Federal money then we have 
absolute say over their decision-making process but is it that 
difference--about what pocket of money they are taking it from?
    Mr. Lewis. We--thank you. We have not come to terms until 
recently with the fact that there's a risk in buying from China 
so our supply chains are deeply integrated and so you know, 
when you go to the store and you turn--very often it will say, 
Made in China. Up until a few years ago people thought, oh 
well, you know, they are going to become a market--this is 
fine, so we have--we are just starting to think about how we 
disentangle that. Part of it might be asking about what 
technologies are sensitive, where's there additional risk?
    You have all seen all the news on Huawei in the papers and 
this is a [inaudible].
    Miss Rice. What are we waiting for in this field?
    Mr. Olson. I would just add, I mean, Congress did examine 
this issue last year when it came to Federal Transit Authority 
dollars, there was actually a 1-year ban put in place in the 
Senate THUD bill. It was unfortunately stripped out of the 
final version that you know, you guys passed on February 15 
because it was deemed controversial because there are certain 
members that have state-owned enterprise Chinese facilities in 
their district and so they are trying to preserve jobs back 
home.
    I will also note--yes, you are right when it comes to the 
bucket of dollars there are some of these local governments 
because of the deep discounts that the Chinese are giving, the 
case of Boston is a very poignant one where the Chinese came in 
as low as much as 50 percent below some other competitors and 
so Massachusetts waved FTA dollars, there's no Buy America 
protections, there's no Federal dollars involved in this 
project and they have just used State money and therefore the 
Chinese are able to build many components and the shells and 
ship them over here so unless we have an outright Federal ban 
or some Federal law that says, you can't do this, I would 
assume that States continue to buy because of price.
    Miss Rice. So I am just wondering how we sound the alarm 
bell. I mean, I just don't know, if we are allowing elected 
Members of Congress to be more concerned about preserving jobs 
in their districts than they are a National security, we have a 
problem so if you wouldn't mind, Mr. Olson, just talking a 
little bit, can you just expound on that more because this has 
to be done. If this administration does not think that this is 
a priority, it is not going to trickle down, it is just not.
    Mr. Olson. I agree with you wholeheartedly. We are a 3-
year-old organization. We started because we saw this market 
entry in such a quick fashion and the 4 contracts quickly 
awarded to CRRC. They have built a freight assembly facility in 
Wilmington, North [inaudible] so opportunities like this to 
testify and get in front of more Members, I mean, we are 
advocacy; we are trying to get in front of as many Members of 
Congress, and State and local officials to raise the alarm 
bells and we are partnering as much as possible with officials 
within the Trump administration to raise more awareness.
    Miss Rice. Well, I want to thank Chairman Correa, very much 
for actually you know, putting this hearing together.
    I want to thank all of you so much because we sit here in 
this little bubble here in Washington and you know, the very 
common theme that I have heard from everyone who has sat at 
that table is, we have to keep the lines of communication open. 
This is not a private-sector issue. This is not a public-sector 
issue. This is a Keep America Safe issue, and Our Democracy 
Safe issue, and I hope that you know, going forward and I know 
with people like you will be able to; I hope we can have this 
conversation in a bipartisan fashion so thank you all for being 
here.
    I yield back the balance of my time.
    Mr. Correa. Thank you, Miss Rice. I agree with you about 
sounding the alarm. It is a very interesting question.
    Now I would like to recognize, Mrs. Watson Coleman, from 
New Jersey.
    Mrs. Watson Coleman. Thank you. Thank you, Mr. Chairman.
    So if we have these companies that are owned by the Chinese 
company making things in the United States of America, 
technically we could have professionals from security, 
cybersecurity whatever to be able to go in, announced and 
unannounced and check right----
    Mr. Olson. Of course.
    Mrs. Watson Coleman. We probably could?
    Mr. Olson. Yes.
    Mrs. Watson Coleman. Do we? Do you know, if we do?
    Mr. Lewis. It does not work and so that is the main 
problem.
    Mrs. Watson Coleman. It does not work, why?
    Mr. Lewis. It does not work because first a lot of the--it 
never did.
    Mrs. Watson Coleman. Yes.
    Mr. Lewis. Pardon me. A lot of the technology is connected 
back to the manufacturer----
    Mrs. Watson Coleman. OK.
    Mr. Lewis. So that they can do updates; you don't know if 
it is malicious traffic or innocent traffic. Second there is 
just a lot of opportunities in rail car or an airplane to 
hide----
    Mrs. Watson Coleman. We are just trying to figure this out.
    You know, Mr. Olson, this one paragraph [inaudible] what do 
you think the Federal Government's role should be here in 
ensuring that this does not happen here?
    Mr. Olson. So first off, RSA's continued position is, 
taxpayers' dollars should not be used to be subsidizing the 
state-owned enterprise from China period, end of story.
    Second, I would love to work with all of you as we look at 
other ways to do bans or outright bans on this technology from 
being on our system. I think it is too scary to allow Chinese 
government-directed company to operate in the United States 
especially when they are building a good chunk of the materials 
in China itself.
    Mrs. Watson Coleman. Because the interest actually is not 
blowing us up as it is much as just owning us?
    Mr. Olson. Tracking us.
    Mrs. Watson Coleman. Owning us.
    WMATA which oversees the Washington Metro System was 
currently working to procure new rail cars and updates its 
procurement requirements to include the enhanced [inaudible] 
safeguards.
    Mr. Olson. RSA's position is as, Mr. Lewis, stated, it is 
never enough. If you are going to be building components and 
parts in China, you can never do enough to mitigate. Our 
position at RSA continues to be risk avoidance, let's just not 
buy them.
    Mrs. Watson Coleman. So let's not allow our money to be 
spent on purchasing Chinese----
    Mr. Olson. Correct.
    Mrs. Watson Coleman. OK.
    I am good. Thank you.
    I yield back.
    Mr. Correa. Thank you very much for those questions.
    Now I would like to recognize the good lady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very much Mr. Chairman.
    Having just come in, let me first of all thank the 
witnesses of the first panel and thank those of the second 
panel [inaudible] events I have been on this committee since 9/
11 and have seen the maturing of terrorist potential and 
utilization of now technology different from bringing down a 
plane or using it as a torpedo into major structures here in 
the United States, though it certainly is well-known that 
certain elements still believe that aviation is a crucial and 
serious part, but I would be interested--or infrastructure is a 
crucial and serious part of potential of attacking the United 
States.
    So, I am going to ask each of your question as to whether 
or not you are--do you think we are fully prepared for zero-day 
potential events; start with, Ms. Gagliostro?
    Ms. Gagliostro. So I would say, in dealing with any sort of 
cybersecurity threats, the most important way for us to be 
prepared and respond is through working with our Federal 
partners on having strong information sharing on what we are 
learning so zero-day threats are always a challenge because it 
is what you don't know yet but I think being cognizant of the 
threat indicators and patterns of behavior and paying attention 
to those that we can be alerted to those threats quickly as 
possible.
    Ms. Jackson Lee. You think the United States should address 
those questions through legislation that would emphasize the 
partnership between the Federal Government and the private 
sector?
    Ms. Gagliostro. I think the best way to address that is 
through strong partnership between the Federal Government and 
the private sector.
    Ms. Jackson Lee. So legislation that dictates that would be 
helpful?
    Ms. Gagliostro. To the extent that we don't think it is 
effective today.
    Ms. Jackson Lee. Mr. Lewis.
    Mr. Lewis. Thank you. First, I would distinguish between 
state and non-state actors. No terrorist group currently has 
the capability nor will acquire in the foreseeable future the 
capability to launch a damaging cyber attack. This has been 
true for years, it is based on evidence from a number of----
    Mr. Correa. Could you repeat that please?
    Mr. Lewis. No terrorist group currently has the capability 
to launch a damaging cyber attack.
    Ms. Jackson Lee. But please know that my zero-day is not 
limited to nation-states.
    Mr. Lewis. Exactly right. We have 4 very capable opponents 
who have certainly done the reconnaissance to launch these 
kinds of attacks against----
    Ms. Jackson Lee. Why don't you just recite their names for 
the records?
    Mr. Lewis. Russia, China, Iran, and North Korea, right, 
they all have the capability, it is a question of when they 
would use it so on the defensive side all the work that you 
have heard from my colleagues, perhaps some improvement in 
standards.
    On the offensive side, as we discussed earlier [inaudible].
    Ms. Jackson Lee [continuing]. Be effective focusing the 
Government on those issues?
    Mr. Lewis. Ma'am, I have asked senior officials at DHS, if 
they need more legislative authority, their position is no, but 
I think it would be useful to look and see where there are gaps 
in the existing legislation that might help them do better at 
protecting------
    Ms. Jackson Lee. Then they do need it because there are 
gaps.
    Mr. Olson [continuing]. And then, Mr. Hultquist, you 
follow?
    Mr. Olson. I would agree with my colleagues on the panel 
here and we would not oppose further legislation if it gives 
more authority to fill as you said gaps for DHS.
    You know, our position from the Rail Security Alliance is 
that we have already allowed the Chinese in and that we need to 
stop the bleeding and not have them further infiltrate more 
transit systems and especially the freight systems so we are 
looking at it from that angle of hardware in the United States 
already.
    Ms. Jackson Lee. Thank you.
    Mr. Hultquist. We have had good success anticipating a lot 
of these events by looking at the places where these actors are 
most active--Ukraine, the Middle East, South Korea--so I would 
argue that getting that information, the observables out of 
those spaces to the private sector who would likely bear the 
brunt of any attack is probably the most important thing we can 
do.
    Ms. Jackson Lee. So if you have any legislation that 
focuses on some of the elements that you have just mentioned--
--
    Mr. Hultquist. Absolutely, enforcing public-private 
partnership I think would be really important.
    Ms. Jackson Lee. Just last question, Mr. Chairman, 
cybersecurity is becoming harder because of the connected 
nature of wireless technology, how long can we secure large 
complex systems when very small devices can pose risks? Whoever 
feels most capable to answer that question, I would be 
delighted.
    Mr. Lewis. I will start. We can't secure them now so it is 
hard to see how it gets much worse but I think that as you add 
more and more connected devices, the ability to create some 
sort of havoc--we talked about the smart doorbells.
    Another one I just heard about is you know, those visible 
braces you have got? Some of them are connected to the internet 
and you can just think of endless numbers of complications, 
between smart cars, smart ships, robots; they are moving into a 
world where the number of things that can be hacked is growing 
exponentially.
    Ms. Jackson Lee. Thank you.
    So anyone else on how do we--yes sir?
    Mr. Hultquist. We add more potential for disruption but we 
also add more factors for the threat actors to gain access to 
critical systems or systems that we care about.
    Ms. Jackson Lee. Anyone else.
    Mr. Chairman, I will just conclude by saying that there are 
gaping holes with our cyber system. This committee is best 
suited to try to address those questions and gaping holes can 
create opportunities for havoc and I think this committee and 
the Oversight on Transportation, Natural Gas, is crucial in its 
work and I hope we will pass legislation dealing with some of 
these very large holes that----
    Mr. Correa. I concur with you, Ms. Jackson Lee, and I 
think----
    Ms. Jackson Lee. They create danger.
    Mr. Correa. We have got a job to do here in terms of 
addressing those gaping holes.
    It seems like every time we turn around there is a new 
toothbrush with a chip on it so when you are brushing your 
teeth somebody's going to know how many times you do it a day 
and my point is there is no privacy anymore and it looks like 
all of our information is interconnected in some form or 
another, whether it is a commercial venture, a state somewhere 
around the world so, Mr. Lewis, you intrigue me again with your 
comments about the deterrence, is there a price to pay for what 
and when, and when does that trigger?
    Good questions.
    I want to thank all the witnesses for their valuable 
testimony and all the Members here for their questions.
    The Members of the committee may have additional questions 
for the witnesses and we ask that you respond to them 
expeditiously and in writing. Pursuant to Committee Rule 
VII(D), the hearing record will be held open for [inaudible].
    Thank you to all the committee Members, of both committees, 
or I should say panels.
    We stand adjourned.
    [Whereupon, at 12:22 p.m., the subcommittees were 
adjourned.]

                                 [all]
                                 
                                 
                                 
</pre></body></html>
